<html>
<title> - WHERE ARE WE NOW? EXAMINING THE POST-RECESSION SMALL BUSINESS LENDING ENVIRONMENT</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
              WHERE ARE WE NOW? EXAMINING THE POST-RECESSION 
                SMALL BUSINESS LENDING  ENVIRONMENT
=======================================================================



                                HEARING

                               before the

        SUBCOMMITTEE ON ECONOMIC GROWTH, TAX AND CAPITAL ACCESS

                                 OF THE

                      COMMITTEE ON SMALL BUSINESS

                             UNITED STATES

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD
                            DECEMBER 5, 2013

                               __________

                               [GRAPHIC] [TIFF OMITTED] 
                               

            Small Business Committee Document Number 113-047

              Available via the GPO Website: www.fdsys.gov





                  U.S. GOVERNMENT PRINTING OFFICE

85-743                    WASHINGTON : 2014
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



                   HOUSE COMMITTEE ON SMALL BUSINESS

                     SAM GRAVES, Missouri, Chairman
                           STEVE CHABOT, Ohio
                            STEVE KING, Iowa
                         MIKE COFFMAN, Colorado
                       BLAINE LUETKEMER, Missouri
                     MICK MULVANEY, South Carolina
                         SCOTT TIPTON, Colorado
                   JAIME HERRERA BEUTLER, Washington
                        RICHARD HANNA, New York
                         TIM HUELSKAMP, Kansas
                       DAVID SCHWEIKERT, Arizona
                       KERRY BENTIVOLIO, Michigan
                        CHRIS COLLINS, New York
                        TOM RICE, South Carolina
               NYDIA VELAZQUEZ, New York, Ranking Member
                         KURT SCHRADER, Oregon
                        YVETTE CLARKE, New York
                          JUDY CHU, California
                        JANICE HAHN, California
                     DONALD PAYNE, JR., New Jersey
                          GRACE MENG, New York
                        BRAD SCHNEIDER, Illinois
                          RON BARBER, Arizona
                    ANN McLANE KUSTER, New Hampshire
                        PATRICK MURPHY, Florida

                      Lori Salley, Staff Director
                    Paul Sass, Deputy Staff Director
                      Barry Pineles, Chief Counsel
                  Michael Day, Minority Staff Director


                            C O N T E N T S


                           OPENING STATEMENTS

                                                                   Page
Hon. Tom Rice....................................................     1
Hon. Judy Chu....................................................     2

                               WITNESSES

Ann Marie Wiersch, Policy Analyst, Federal Reserve Bank of 
  Cleveland, Cleveland, OH.......................................     4
Jeff Stibel, Chairman and CEO, Dun and Bradstreet Credibility 
  Corp., Malibu, CA..............................................     6
Renaud Laplanche, CEO, Lending Club, San Francisco, CA...........     7
Fred L. Green, III, President and CEO, S.C. Bankers Association, 
  Columbia, SC...................................................     9
John Farmakides, President/CEO, Lafayette FCU, Kensington, MD, 
  testifying on behalf of the National Association of Federal 
  Credit Unions..................................................    11

                                APPENDIX

Prepared Statements:
    Ann Marie Wiersch, Policy Analyst, Federal Reserve Bank of 
      Cleveland, Cleveland, OH...................................    27
    Jeff Stibel, Chairman and CEO, Dun and Bradstreet Credibility 
      Corp., Malibu, CA..........................................    34
    Renaud Laplanche, CEO, Lending Club, San Francisco, CA.......    42
    Fred L. Green, III, President and CEO, S.C. Bankers 
      Association, Columbia, SC..................................    45
    John Farmakides, President/CEO, Lafayette FCU, Kensington, 
      MD, testifying on behalf of the National Association of 
      Federal Credit Unions......................................    55
Questions for the Record:
    None.
Answers for the Record:
    None.
Additional Material for the Record:
    CUNA - Credit Union National Association.....................    67
    Lend Academy.................................................    72


 WHERE ARE WE NOW? EXAMINING THE POST-RECESSION SMALL BUSINESS LENDING 
                              ENVIRONMENT

                              ----------                              


                       THURSDAY, DECEMBER 5, 2013

                  House of Representatives,
               Committee on Small Business,
  Subcommittee on Economic Growth, Tax and Capital 
                                            Access,
                                                    Washington, DC.
    The Subcommittee met, pursuant to call, at 10:02 a.m., in 
Room 2360, Rayburn House Office Building, Hon. Tom Rice 
[chairman of the Subcommittee] presiding.
    Present: Representatives Rice, Chabot, Mulvaney, 
Schweikert, Chu, and Payne.
    Chairman Rice. Good morning. The hearing will come to 
order.
    Today we will examine the lending environment for small 
businesses. Since small businesses create over two-thirds of 
new jobs, we must make an effort to ensure capital is available 
for their growth. By comparing pre- and post-recession levels 
of traditional small business lending, and analyzing the 
factors affecting these levels, we can gain a better 
understanding of where we stand and narrow our focus on the 
policies that will spur economic growth and job creation.
    Recent data shows that banks are making more small loans in 
the past 2 years. Despite this improvement, loan levels are 
still below where they were before the recession. Economists, 
bankers, small business owners, and regulators point to 
different reasons to explain the postrecession drop in small 
business lending. Some suggest it is reduced demand by small 
borrowers, while others point to increasing regulatory scrutiny 
on banks.
    In reality, a confluence of forces has led to lower levels 
of lending. For instance, at the same time banks are being 
forced by regulators to require more from borrowers in the way 
of collateral and personal guarantees, home values, a huge 
source of collateral for borrowers, have dropped. And when the 
potential borrowers hear that it is hard to obtain bank 
financing, many do not seek it, thereby decreasing loan demand.
    We are fortunate to have with us a group of leaders within 
the small business financing space, from experts that analyze 
lending to those that are on the front lines making the loans. 
We will also hear from a business that offers a new source of 
financing that is becoming part of the lending environment. I 
look forward to learning firsthand what today's witnesses see 
as the factors shaping the lending landscape.
    With that, I would like to thank our distinguished panel of 
witnesses for being here today, and I now recognize the ranking 
member for her opening statement.
    Ms. Chu. Good morning.
    Today's hearing will examine the current state of lending 
to small businesses. Although in the last 2 years the lending 
environment has slightly improved, bank loans to small 
businesses remain below prerecession levels. Multiple factors 
and economic trends affect small business lending. And today we 
are going to receive testimony from experts and industry 
leaders on this very, very important matter.
    Evidence suggests that our Nation's economy is slowly but 
surely on the mend; 7.8 million jobs have been created since 
the postcrisis low of 2010. The housing and auto industries, 
which were central to the downturn, have rebounded. The Federal 
Reserve's monetary policy stance has remained conducive, 
providing market liquidity and supporting the resurgent stock 
market. The small business sector is also experiencing an 
uptick in hiring.
    Still, expansion expectations are below the norms seen 
during the previous economic downturns. For job growth to 
accelerate and to reach the pace that our economy needs, small 
businesses must become a bigger part of the equation. In every 
previous recession, it has been small, nimble firms that have 
led us back to prosperity by growing quickly and adding new 
workers.
    In order for these firms to play their traditional job-
creating role, a number of factors must be in place. Perhaps 
the most important ingredient is the availability of capital. 
If, as the saying goes, small businesses are the economy's 
backbone, then the flow of capital is the lifeblood. Since the 
great recession, the value of small business loans has remained 
at less than 80 percent of its pre recession level. The number 
of loans issued also dropped from over 25 million before the 
recess to just over 21 million in the second quarter this year.
    Although challenges remain, there has been progress. The 
Thompson Reuters/Pay Net Small Business Lending Index is well 
off its low, but remains below its highs. This indicates that 
firms are borrowing again, but are hesitant about the future. 
Fewer are also falling behind or defaulting on loans, 
suggesting they are in better shape to take on additional debt, 
and hopefully expand.
    Within this context, it is important to remember that 
lending through the Small Business Administration is always 
critical for entrepreneurs seeking affordable capital. However, 
during periods of economic sluggishness, when credit is tight 
elsewhere, the SBA's role becomes more important. Last year, 
the agency made nearly $18 billion in 7(a) loans and made 
available another $5 billion in financing for projects under 
the 504 program.
    Unfortunately, while this represents a positive trend in 
the total dollars lent, the number of businesses receiving SBA 
loans has fallen dramatically. Compared to the agency's high-
water mark in 2007 when over 110,000 small businesses received 
loans through this program, the total number helped has fallen 
by 51 percent, meaning that 56,000 fewer small businesses 
received loan assistance this year.
    And understanding what this trend means for entrepreneurs 
and what is driving it is of great concern to this 
Subcommittee. All of this is occurring against a regulatory 
backdrop that is changing. Dodd-Frank resulted in a vast array 
of new regulations on the financial sector and established 
several new government entities. These new powers are necessary 
to address the root causes of the financial crisis, 
overleverage and deceptive mortgages, to name a few. At the 
same time, we must be sure our Nation's small banks and credit 
unions that were not the cause of the downturn are exempted.
    While regulations implemented under the act will change 
many facets of the financial industry, data indicates that the 
perceived regulatory burden has had no negative effect on small 
business lending. In fact, a consortium of the Nation's most 
prolific small business lenders recently announced they made an 
additional $17 billion in loans in the past 2 years.
    At today's hearing, we will take the pulse of the small 
business lending environment and gain insight about how to 
expand small businesses' financing options. And as we do so, it 
is important to remember that what makes sense for one 
entrepreneur might not work for another, and that there is a 
broad spectrum of capital options for small firms. Some 
businesses' needs can be met with conventional loans, and for 
others a debt-based solution may not make sense at all. Equity 
investment might make a better fit.
    On that note, I would like to thank our witnesses for 
taking time to be here. Their views and experiences will be 
very valuable to the Subcommittee as we consider how best to 
meet small businesses' capital needs.
    Thank you, and I yield back.
    Chairman Rice. Thank you, Ms. Chu.
    Your opening statements will be submitted for the record. 
If any Committee members have opening statements, theirs will 
be submitted for the record. I would like to take a moment to 
explain the timing lights to you. You have lights in front of 
you. They will start out as green. When they turn yellow, you 
have 1 minute. When they turn red, your time is up. But within 
reason, we will give you a certain amount of flexibility to 
finish your statements.
    Our first witness is Ann Marie Wiersch, policy analyst at 
the Federal Reserve Bank of Cleveland. Ms. Wiersch joined the 
bank in 1999, and worked in the accounting and financial 
management departments prior to her transition to a policy role 
in 2009. She has worked on several Federal Reserve System 
initiatives, including the projects focused on small business 
issues and State and local government finance. Ms. Wiersch 
holds an undergraduate degree in business administration from 
Bowling Green State University and an MBA from Cleveland State 
University.
    Ms. Wiersch, we look forward to your testimony.

   STATEMENTS OF ANN MARIE WIERSCH, POLICY ANALYST, FEDERAL 
RESERVE BANK OF CLEVELAND, CLEVELAND, OH; JEFF STIBEL, CHAIRMAN 
  AND CEO, DUN AND BRADSTREET CREDIBILITY CORP., MALIBU, CA; 
RENAUD LAPLANCHE, CEO, LENDING CLUB, SAN FRANCISCO, CA; FRED L. 
   GREEN, III, PRESIDENT AND CEO, S.C. BANKERS ASSOCIATION, 
     COLUMBIA, SC; AND JOHN FARMAKIDES, VICE PRESIDENT OF 
  LEGISLATIVE AFFAIRS, NATIONAL ASSOCIATION OF FEDERAL CREDIT 
                     UNIONS, ARLINGTON, VA

                 STATEMENT OF ANN MARIE WIERSCH

    Ms. Wiersch. Chairman Rice, Ranking Member Chu, and 
distinguished members of the Subcommittee, it is an honor to 
testify before you today on the state of small business 
lending. My statement will focus on the decline in lending to 
small businesses and the factors that are driving that decline. 
My remarks represent my own views and are not official views of 
the Federal Reserve Bank of Cleveland, or any other element of 
the Federal Reserve System.
    Recent industry and media reports provide a mix of 
perspectives on the state of small business lending. 
Contradictory messages abound and often result from 
inconsistent definitions of what constitutes a small business 
and from the absence of comprehensive and reliable data on 
small business lending.
    Banks and government agencies use a wide range of 
parameters to classify firms as small businesses. One 
frequently cited definition is so expansive that it includes 
more than 99 percent of businesses in the U.S. It should not 
come as a surprise then that we hear so many differing reports 
about small business conditions when firms of so many different 
sizes and industries are analyzed together. In addition, the 
considerable lack of data on small business lending and the 
variance in the size of firms and loans included leads to 
inconsistency in reporting among the data that are available.
    Nonetheless, we do know that bank lending to small 
businesses declined since the onset of the great recession. 
According to FDIC data, the current value of small loans 
outstanding is about 78 percent of its prerecession level in 
inflation-adjusted terms. Recent analysis by the Federal 
Reserve Bank of Cleveland concludes that there are a number of 
factors driving this trend. Fewer small businesses are 
interested in borrowing than in past years. And at the same 
time, small business financials and collateral values remain 
weak, depressing loan approval rates. Furthermore, increased 
scrutiny from regulators led some banks to boost their lending 
standards, resulting in a smaller fraction of creditworthy 
borrowers.
    Finally, shifts within the banking industry have reduced 
the number of banks focused on the small business sector. Small 
business lending has become relatively less profitable than 
other types of lending, dampening some bankers' interest in 
this market.
    Small businesses were hit hard by the economic downturn, 
and weak earnings and sales mean that fewer businesses are 
looking to expand. Surveys show that since 2007, fewer 
businesses plan to seek credit, increase capital investment, 
and hire additional workers.
    Some of the subdued demand for loans may stem from 
perceptions that credit is not readily available. According to 
recent surveys, more business owners think that credit has 
become harder to get and will remain so.
    The supply of credit has also declined as lenders are 
approving fewer small business loan applications, with many 
firms lacking the cash flow, credit scores, and collateral that 
banks require. More lending is secured by collateral now than 
before the recession, and the decline in value of both 
commercial and residential properties has made it difficult for 
businesses to meet collateral requirements.
    At the same time, bankers have increased their credit 
standards, meaning that fewer small businesses qualify for 
loans than before the economic downturn. Banks tightened 
lending standards significantly during the recession, and while 
standards have eased somewhat in recent quarters, data show 
they remain stricter for small businesses than for large firms.
    Furthermore, there is evidence that heightened scrutiny by 
regulators factored into banks' decisions to tighten standards. 
The research shows that elevated levels of supervisory 
stringency have a material impact on total loans and loan 
capacity.
    The decline in lending also reflects longer term trends. 
Banks have been exiting the small business loan market for over 
a decade, leading to a reduction in the share of small business 
loans in banks' portfolios. The FDIC reports that the fraction 
of nonfarm, nonresidential loans of less than a million dollars 
has declined steadily since 1998, dropping from 51 to 29 
percent.
    Consolidation of the banking industry has reduced the 
number of small banks, which are more likely to lend to small 
businesses. Moreover, increased competition in the banking 
sector has led some bankers to seek bigger, more profitable 
loans. The result has been a decline in small business loans, 
which are less profitable, because they are banker time 
intensive, are more difficult to automate and securitize, and 
have higher costs to underwrite and service.
    While the decline in small business credit since the great 
recession is evident, the causes of the decline are less clear. 
A careful analysis of various data sources suggests that a 
multitude of factors explain the reduction in credit. The 
supply and demand forces unleashed by the financial crisis 
added to longer term trends, as some banks had already been 
shifting away from the small business credit market.
    The confluence of factors makes it unlikely that small 
business credit will spontaneously increase any time soon. 
Given the contribution that small businesses make to employment 
and economic activity, policymakers may be inclined to 
intervene to promote greater access to credit for small 
business owners. When considering means of intervention, 
however it is important to be cognizant that multiple factors 
are affecting credit demand and supply. Any proposed solution 
should consider the combined effect of all the factors 
involved.
    This concludes my prepared remarks, and I look forward to 
your questions.
    Chairman Rice. Thank you, ma'am.
    Our next witness is Jeff Stibel, chairman, chief executive 
officer, and president of Dun & Bradstreet Credibility 
Corporation. Mr. Stibel was previously president and CEO of 
Web.com, Inc., and currently sits on the boards of numerous 
private and public companies, as well as academic boards of 
Tufts University and Brown University. He is the author of 
academic and business articles, the book ``Wired for Thought,'' 
and is the named inventor of the U.S. patent for search engine 
interfaces. Additionally, he was the recipient of the Brain and 
Behavior Fellowship while studying for his Ph.D. at Brown 
University.
    Mr. Stibel, we look forward to your testimony.

                    STATEMENT OF JEFF STIBEL

    Mr. Stibel. Thank you, Chairman Rice, Ranking Member Chu, 
the Committee, and its wonderful staff for having me here today 
to discuss what I believe is one of the most important topics 
in regards to the economy today.
    As you mentioned, Chairman Rice, I am the CEO of Dun & 
Bradstreet Credibility Corp. We are one of the largest business 
credit monitoring companies in the United States. So I believe 
I have a unique perspective into the topic of small business 
lending. My written testimony is full of statistics that 
demonstrate in short that small businesses today are finally 
doing well again. Yet despite that fact, they are not adding 
jobs.
    The reason is because they need access to capital to grow 
their businesses, yet they are not able to secure sufficient 
loans. It is a small business paradox, one in which small 
businesses are growing revenues but not payroll, and that is 
hurting our economy and society as a whole. What we are seeing, 
in effect, is the smaller the business, the greater the revenue 
growth. And we are seeing this throughout this year.
    This is a good thing. It also means that the smaller the 
business, the greater the productivity as measured in terms of 
revenue output per employee. However, what we are not seeing is 
that the smaller businesses are adding jobs. And it is the jobs 
that really drive our economy forward in the long run.
    Rather than regurgitate these statistics, I would like to 
tell a story about a small business owner that I met only a few 
days ago. I believe his story, better than any statistics, will 
encapsulate the problems that we are facing.
    I met Mike Banfield on Monday of this week. He founded 
SpringStar in 1998 in Seattle, Washington, to offer organic 
pest control products. It was a huge success story almost right 
from the beginning. He grew revenues, he grew employees. He 
eventually got a bank loan, and that fueled his growth even 
further. Throughout the recession, Mike's business actually 
thrived, and he continued to grow.
    However, as we have all seen, banks didn't fare as well. So 
the bank ended up calling his loan. Despite the fact that this 
was an SBA-backed loan, Mike had to give a personal guarantee 
because that is still required. And when he pulled that loan, 
Mike's successful business went under, and he almost went 
bankrupt himself, ruining his family.
    The good news is that Mike is an entrepreneur and he 
persevered and he ended up finding an alternative source of 
capital, rebuilt his business, was able to grow that business. 
And that business is now thriving today, with record revenues.
    However, he hasn't added any jobs. To add jobs, he needs 
greater access to capital. The problem is that Mike has been 
trying for years and can't get a bank loan. Now, he is just 
plain discouraged. He needs a loan, but no longer wants a loan.
    A little known fact in business is that jobs are added for 
future growth, not current demand. For current demand, people 
in business just work harder. Job growth is an investment, just 
like computers, equipment, tools, manufacturing. Investments 
require capital, but many companies like Mike's aren't willing 
or able to secure loans anymore. And the stats are, frankly, 
alarming. The smallest businesses have less access to capital, 
and the smallest business owners have less desire for that 
capital.
    We have a small business paradox, and there is an even 
greater need than there ever has before. This personally is a 
painful story to hear as a business person. A company poised 
for success that just needs access to capital. I suspect it is 
a painful story to hear for government. A company poised to 
impact the economy and society, but can't unless it gets access 
to capital.
    But most of all, this is a painful story to hear for the 
unemployed. We have people who desire to contribute to society, 
who see a desperate need from a company, but a need and desire 
that cannot be fulfilled without access to capital. I believe 
that is why we are all here today. And working together, 
business, banks, and the government, we can all work to make a 
difference. So thank you.
    Chairman Rice. Thank you, Mr. Stibel.
    Our next witness is Renaud Laplanche, founder and CEO of 
Lending Club. Prior to starting Lending Club in 2006 Mr. 
Laplanche was the founder and CEO of TripleHop Technologies, an 
enterprise software company eventually acquired by Oracle. He 
was named the 2013 Ernst & Young entrepreneur of the year award 
winner for northern California and 2012 entrepreneur of the 
year at the BFM awards. Mr. Laplanche has a master's of 
business administration from HEC and London Business School, 
and a J.D. from Montpelier University, and is a frequent guest 
lecturer at Columbia Business School.
    Mr. Laplanche, we look forward to your testimony.

                 STATEMENT OF RENAUD LAPLANCHE

    Mr. Laplanche. Thank you. Good morning. Thank you for 
having me. My name is Renaud Laplanche, and I am the founder 
and CEO of Lending Club, a credit platform that employs over 
300 people in San Francisco and has facilitated over $2 billion 
in consumer loans this year, funded by both individual and 
institutional investors. And we will be launching a dedicated 
small business lending platform in the next quarter.
    My father was a small business owner. He owned a grocery 
store in a small town in France. And I spent every day of my 
teenage years, from 5 to 8 in the morning before class, helping 
him in the store.
    After having started two companies in New York and San 
Francisco, residing in the U.S. for over 14 years, and starting 
a family here, I recently passed my citizenship test and will 
soon be a U.S. citizen. Testifying before this Committee on the 
state of small business lending in America is a very special 
moment for me.
    Small businesses are not only a driving force in the U.S. 
economy, they are an essential part of the American dream. I 
believe it is our shared responsibility to ensure that these 
businesses and their owners have sufficient access to capital 
on fair terms.
    I have two points I hope to convey to you today. First, 
small businesses have insufficient access to credit, and the 
situation is not getting any better. Second, their credit 
performance as a group suggests that they should be getting 
more credit.
    A survey released by the Federal Reserve Bank of New York 
in August of this year was the latest to paint a grim picture 
of availability of credit to small businesses. Access to 
capital was reported as by far the biggest barrier to growth. 
Out of every 100 small businesses, 70 wanted financing. Of 
those 70, 29 were too discouraged to even apply. Of the 41 that 
did apply for credit, only 5 received the amount they wanted. 
Substantially, all of these businesses were looking for $1 
million or less in capital.
    The situation has not gotten any better lately. While the 
overall volume of loans of more than a million dollars has 
risen slightly since 2008, loans of less than 1 million have 
fallen by 19 percent. The number of small businesses with a 
business loan fell by 33 percent from 2008 to 2011.
    The problem is worse for the smallest businesses. While 
businesses with 20-plus employees reported an increase in bank 
loans from 2009 to 2011, the majority of small businesses, 
which have fewer than 20 employees, reported a decline, with 
the smallest businesses suffering the steepest decline. 
Businesses with two to four employees reported a 46 percent 
reduction in bank loans over that same period.
    While traditional sources of capital have pulled back, 
alternatives are on the rise. Alternative lenders, such as 
online lenders and merchant cash advance providers, are the 
fastest growing segment of the SMB loan market, reporting a 64 
percent growth in originations over the last 4 years. Many of 
these alternative lenders, however, charge fees and rates that 
result in annual percentage rates generally in excess of 40 
percent. And without always full transparency, business owners 
don't always understand the true cost of these loans. This lack 
of understanding can be very harmful to small businesses, which 
could find themselves in a spiral of inescapable debt service.
    Small business credit performance and loan performance, 
however, is doing just fine. Charge-off rates on small business 
loans have been below 1 percent since March 2012, down from a 
peak of nearly 3 percent in 2009. In contrast, charge-off rates 
on consumer credit cards peaked above 10 percent in the 
financial crisis. These figures show that absolute loan 
performance is not the main issue of declining SMB loan 
issuance. We believe a larger part of the issue lies in high 
underwriting costs and generally high operating costs for the 
lenders.
    SMBs are a very heterogeneous group, and therefore the 
underwriting and processing of these loans is not as cost 
efficient as underwriting consumers, a more homogenous group. 
Business loan underwriting requires an understanding of the 
business plan and financials and interviews with management 
that result in higher underwriting costs, which make smaller 
loans, under $1 million, and especially under $250,000, less 
attractive to lenders. By contrast, larger loans, going mostly 
to larger businesses, are more attractive, as they allow for 
underwriting costs to be amortized over a larger amount and 
longer loan period.
    We believe we have solutions to bring underwriting costs 
down and create the conditions for credit to become more 
available and more affordable to small businesses in America, 
and we would be honored to answer the Subcommittee questions in 
that regard.
    Chairman Rice. Thank you, Mr. Laplanche.
    Our next witness is Fred Green, III, president and CEO of 
the South Carolina Bankers Association, based in Columbia, 
South Carolina. Prior to his current position, Mr. Green served 
as president and COO of Sunovis Financial Corp, a five-State 
bank holding company, and before this as president, CEO, and 
chairman of the National Bank of South Carolina. Mr. Green also 
previously served on the board of the Fifth District Federal 
Reserve Bank, based in Richmond, Virginia, and on the Federal 
Advisory Council for both the Fifth and Sixth Districts. He 
received his B.S. and MBA from the University of South 
Carolina. Go Gamecocks.
    Mr. Green, we look forward to your testimony.

                STATEMENT OF FRED L. GREEN, III

    Mr. Green. Good morning. Chairman Rice, Ranking Member Chu, 
members of the Committee, my name is Fred Green. I am the 
president and CEO of the South Carolina Bankers Association. We 
are the professional trade association that has represented 
South Carolina banks for over 110 years. Our members are both 
large and small banks, and collectively they hold about 99 
percent of the deposit market share in our State. I have been a 
banker for 34 years, mostly in leadership roles in commercial 
banks, and for the last 2 years I have headed up our State 
association.
    This morning I am pleased to share the banking industry's 
perspective on the state of the small business lending 
environment. You all know how important small business is to 
the national economy. Small businesses account for over half 
the jobs in the U.S., and as much as 65 percent of new jobs 
created over the last 15 years.
    Banks are the primary lenders to small businesses, and 
their presence in local communities throughout our Nation is 
critical to meeting the unique needs of new and developing 
companies. There is a symbiotic relationship between the health 
of a community and the health of the banks that are located and 
operate there. This is why small business lending is an 
important part of every bank strategy and why banks today 
provide more than 21 million small business loans.
    Loan demand has improved since the recession. However, it 
remains at relatively weak levels, held back, I think, and we 
all think, by uncertainty about the future. Concerns over 
changes to taxes, employment costs, and regulation make small 
business owners less interested in expanding and incurring new 
debt to fund that expansion. Another point that reinforces the 
lower demand is the utilization of borrowings under existing 
committed lines is at a relatively low level at 50 percent. 
These are loans that have already been committed, the borrower 
can draw down to expand, but have only drawn up to 50 percent.
    Despite the low loan demand, banks continue to meet the 
needs of their customers. In every community, banks are 
actively lending and continually looking for lending 
opportunities. After declines in the loan portfolios since 
prerecession peaks, recent FDIC data shows that outstanding 
loans have been growing over the last 12 months.
    Banks face challenges in providing loans to meet their 
customers' needs with the most recent wave of regulations as 
well. The cumulative impact of hundreds of new or revised 
regulations may be a weight too great for many small banks to 
bear. Congress must be vigilant in its oversight in 
implementing the Dodd-Frank Act to ensure that rules are 
adopted only if they result in a benefit that clearly outweighs 
the burden. Some rules under Dodd-Frank, if done improperly, 
will literally drive some banks out of business.
    In South Carolina, we recognize this growing concern, and 
recently held a special conference of our top bank executives 
to address significantly stricter mortgage regulations and 
capital standards that will be implemented next year. Some 
community banks have already told us that they will have to 
stop offering certain products, like residential mortgages, 
because of the new lending regulations.
    For many, these community banks are the only option in 
their community, the only source of lending of this type in 
their community. In fact, community banks are the only physical 
banking presence in one-fifth of the counties in the United 
States. And more regulation means more resources devoted to 
regulatory compliance, and this means fewer resources can be 
dedicated to doing what banks do best, and that is meeting the 
credit needs of the local communities, the businesses, and the 
residents that are there.
    Banks are eager to serve the financing needs of small 
businesses. They understand that they play a critical role in 
their local economies, and no bank has or wants to stop 
pursuing small business lending. Yet small businesses remain 
hesitant to expand due to the economic uncertainty. This does 
not mean that banks are not making loans. Our economy is 
growing, although slowly, and banks are addressing the 
financing needs that exist today.
    Healthy, properly financed small businesses are absolutely 
critical to our communities' economies. Banks understand their 
role in this and continue to make loans to every creditworthy 
borrower they can, despite an increasingly difficult lending 
environment.
    Thank you again for the opportunity to testify.
    Chairman Rice. Thank you, Mr. Green.
    I would now yield to Ms. Chu, who will introduce our final 
witness.
    Ms. Chu. I have the pleasure of introducing B. John 
Farmakides, president and CEO of Lafayette Federal Credit 
Union. Mr. Farmakides is the president and CEO of this credit 
union. He has been an active member of this particular credit 
union community since 1994 and was named president and CEO in 
2007. Prior to that, he worked in investment banking, 
commercial real estate, and for the Federal Government.
    Currently, Mr. Farmakides holds positions on many 
professional boards and serves on the regulatory committee of 
the National Association of Federal Credit Unions. Mr. 
Farmakides received his BBA and MBA degrees from James Madison 
University and a law degree from the American University.
    Welcome, Mr. Farmakides.

                  STATEMENT OF JOHN FARMAKIDES

    Mr. Farmakides. Thank you. Good morning Chairman Rice, 
Ranking Member Chu, and members of the Subcommittee. My name is 
John Farmakides, and I am testifying today on behalf of the 
National Association of Federal Credit Unions. I serve as 
president and CEO of Lafayette Federal Credit Union, 
headquartered in Kensington, Maryland.
    NAFCU and the entire credit union community appreciate the 
opportunity to discuss the small business lending environment. 
Credit unions serve over 97 million people from all walks of 
life, and we are eager to provide our members the best lending 
opportunities, while helping to spur job creation.
    Despite regulatory and statutory obstacles to credit union 
business lending, a November 2013 survey of NAFCU members found 
that credit union member business lending is growing over the 
next 12 months. On a scale that goes from negative 100 to 
positive 100, where zero indicates flat growth, the median 
growth expectation for credit unions was 35.6.
    Still, credit unions are hampered in their ability to help 
small businesses by an arbitrary and outdated member business 
lending cap that hasn't been adjusted in over 15 years. Credit 
union member business lending is limited to 12.25 percent of 
total assets, with member business loans over $50,000 counting 
against the cap. This is counterproductive as the country 
continues to recover from the financial crisis.
    At Lafayette, we have seen increased demand from our 
members to access business lines of credit, to help meet day-
to-day cash flow shortfalls, and manage the needs of their 
businesses. I have example after example of ways we have been 
able to help, such as a $125,000 line of credit we extended to 
a local bike rental and touring company to help manage the 
cyclical nature of their business.
    Unfortunately, any line of credit above the $50,000 
threshold counts towards the cap, even if the funds are not 
actually extended. Consequently, Lafayette is forced to pick 
and choose which business loans will be funded even though all 
are creditworthy. Businesses often turn to us when they have 
denied lines of credit from other lenders. So if we can't 
extend the line of credit, it is not likely to happen anywhere 
else.
    I am very proud of my staff and the level of expertise we 
have in member business lending. Just in the last year, we have 
been able to assist very small traditional companies, such as a 
specialty bakery with a single owner. At the same time, we have 
made loans to several consulting firms related to government 
contracting, in addition to a trucking delivery service, as 
well as an innovative solar energy appliance company.
    We urge members of the Subcommittee to help credit unions 
by supporting corrective legislation to modernize the cap, such 
as a bipartisan bill introduced by Representative Ed Royce and 
Carolyn McCarthy, H.R. 688, along with the ideas to assist 
small businesses, such as adjusting the outdated definition of 
a member business loan from $50,000 to a new 21st century 
number of $250,000, indexed for inflation.
    The Small Business Administration loan programs also are an 
important resource that help credit unions provide capital. 
However, utilizing an SBA loan guarantee program requires 
meeting stringent government regulations. We are an approved 
SBA 7(a) lender, but currently have just one SBA 504 loan 
outstanding and one USDA business and industry loan 
outstanding.
    Part of the challenge for credit unions is determining the 
overall applicant eligibility to participate in an SBA program, 
which is nearly as important as determining the applicant's 
creditworthiness. Failing to meet certain eligibility criteria 
may preclude the applicant from participating in an SBA 
guaranteed loan program. Eligibility criteria includes, among 
other things, size restrictions, type of business, use of 
proceeds, credit standards, and meeting a credit-elsewhere 
test.
    If Congress and the SBA were to make it easier for credit 
unions to participate in these programs, small businesses 
throughout the Nation will have greater access to capital at a 
time when it is needed most. A 2011 SBA study found that credit 
unions played an important countercyclical role to meet demands 
of small business loans while others pulled back during the 
recent recession.
    In conclusion, small businesses are the driving force of 
our economy. Credit unions play an important role in helping 
our member small businesses access the funds they need. 
Congress should do everything they can to ensure credit unions 
can meet the needs of their members. Thank you for the 
opportunity to testify today, and I welcome any questions you 
may have.
    Chairman Rice. Thank you, Mr. Farmakides.
    I am going to withhold my questions until the end, and work 
with the panel here.
    Ms. Chu, would you like to do the same? Whichever order you 
prefer is fine with me.
    Ms. Chu. Yes. Well, you know what, I would like to defer to 
the member as well and give him a first shot.
    Chairman Rice. Okay. I am going to start with Mr. Mulvaney 
then. Thank you.
    Mr. Mulvaney. Thank you, Mr. Chairman.
    Folks, thanks very much for participating today. In 
listening to your testimony, I harken back to a story that I 
heard when I was in Charleston, South Carolina, a couple months 
ago, meeting with one of the small community banks there, and 
they were telling me about the last visit they had from their 
examiner. And the examiner at the end of the process asked them 
how they were dealing with Dodd-Frank. And the bank president 
said, well, it is absolutely killing us. The additional 
paperwork has required us to hire three new people to do 
nothing but fill out the new oversight paperwork. And the 
examiner's response was, well, then it is working, because you 
have created three jobs.
    I think we could leave for another day the discussion as to 
whether or not that is really jobs created or jobs simply 
shifted from one part of the economy to another. But it reminds 
me of something that Mr. Green spoke to, which is the impact of 
Dodd-Frank on capital available for lending. It strikes me if I 
have to hire three people to fill out paperwork, that takes 
money away from what I can lend out to my customers and so 
forth.
    Mr. Green, walk me through just a couple examples you think 
of how Dodd-Frank is impacting the capital available for small 
business lending.
    Mr. Green. Well, Congressman, first off, the example you 
gave is what we hear from all of our bankers throughout the 
State, and I would think many of our counterparts throughout 
the country. There is a shift of resources away from customer 
contact, bankers, those that might be out looking for loans and 
making loans, now to the compliance side.
    The banking industry, bankers by definition are risk 
averse. They have to understand the risk, they have to put in 
policies and procedures to manage that risk. And with the 
mountain of regulations that have come and been thrown on the 
banking industry, and not only the volume but the velocity, the 
quickness in which it has come in, the proposed regulations 
that will soon follow, the banks have had to go out and hire 
lawyers, consultants, compliance folks, as you indicated. And 
those are resources that had heretofore been out meeting the 
needs of the borrowing constituents around in the community. 
That is one example.
    The other example would be documentation, and that is a big 
one, because lending is both an art and a science. When I 
started in the banking business, we called it the C's of 
credit. The science part of the C's of credit are cash flow, 
capacity, collateral, things like that.
    The primary part of the C's of credit were characters. In 
the larger loan opportunities the quality of the financial 
information is much stronger than it is in the smaller 
borrowing entities, the smaller companies. The quality of their 
financial information is not as robust. They don't have as much 
information. They can't predict the future maybe as well based 
on trends. So the tipping point between whether many loans are 
made in that smaller category falls to character. And that is 
knowing the customer, knowing the community, knowing the 
competitors, and the ability to maybe take that risk.
    Now, under Dodd-Frank and under the regulations, you have 
to document every loan opportunity. The problem there is you 
can't document the intangibles, like I just described. As a 
result, we have had many bankers come to us and say, we would 
have made this loan many times in the past, in fact made many 
loans like this in the past, and they are good customers today, 
but we can't make that loan today because we can't document 
this intangible piece that is so important. So as a result, 
there are, we think, a lot of loans, primarily in that smaller 
category, that aren't being made as a result of the 
regulations.
    Mr. Mulvaney. I also get the impression that the compliance 
requirements are driving some consolidation. There is a great 
deal of consolidation in the industry, but some of it is being 
driven by compliance requirements because the smaller 
institutions simply don't have the infrastructure necessary to 
meet the compliance requirements. And it strikes me that is 
also limiting availability of capital to small businesses. 
Would you agree with that?
    Mr. Green. I agree, yes, sir. If you think of it this way, 
compliance cost is a fixed cost. The larger the institution, 
that cost is spread over a larger asset base and larger 
earnings base. The smaller the institution, that is a heavier 
burden.
    Regulation applies to all banks, regardless of size. So the 
smaller the institution, has to dedicate more resources, more 
cost, and it has a smaller base to spread it over. So 
therefore, their earnings capacity is less. Earnings capacity 
is less, the future is maybe uncertain. Consolidation has 
occurred and will continue to occur. I have talked to a number 
of investment bankers who have told me that there is a 
tremendous amount of conversation going on now with smaller 
community banks, and a lot has to do with this increased cost 
structure as a result.
    Mr. Mulvaney. And there was something that Mr. Laplanche 
said--I am not going to get a chance to ask questions, maybe we 
will get a second round later on--that said that because of the 
character, the intangible nature of small businesses, that it 
is higher cost to lend to small business, it is harder to do, 
and if we don't have these community-based institutions, the 
larger institutions simply aren't going to take on that lending 
possibility. But I will maybe get a chance to ask that question 
later on.
    Thank you, Mr. Chairman.
    Chairman Rice. Thank you, Mr. Mulvaney.
    Mr. Payne.
    Mr. Payne. Thank you, Mr. Chairman, and to the ranking 
member.
    Let's see. Mr. Laplanche, you in your written testimony are 
proclaiming to have solutions to bring underwriting costs down 
and create conditions to increase credit availability and 
affordability. Please share some of those ideas with the 
Committee.
    Mr. Laplanche. Yes. Thank you for giving me this 
opportunity. So, first, I want to start by saying that nothing 
will ever get better, no underwriting process would ever get 
better than the relationship between a community banker and a 
small business owner. That is always going to be the best way 
to--combined with financial information and credit data--the 
best way to assess a small business owner's ability to repay 
the loan and make the business successful.
    I think the solutions we are working on are not designed to 
be a substitute. They are really designed to fill in a void. So 
in the absence of that relationship, or in circumstances where 
these relationships do not lead to a successful loan 
application, we believe we can offer tools that help make these 
loans possible and at a low underwriting cost.
    And part of the answer here is technology. And we believe 
that technology can be applied in two different ways. One, to 
aggregate financial data and make the financial data more 
readily available to loan underwriters. And two, by looking 
into new, nontraditional underwriting data sources.
    So in the first category we are working with a number of 
data providers to help pool data about the small businesses 
that apply for a loan with the expressed consent of the small 
business owner. For example, we are working with Intuit 
Corporation, the maker of QuickBooks, to through an API code 
for a technology solution, essentially collect all the 
QuickBooks data, so the entire accounting of the small 
business, and extract that information, run analysis on that 
information, calculate ratios how that can be used as part of 
the underwriting and can be reviewed by the underwriter.
    And that data extraction, the data analysis process can 
make the job of the underwriter easier and can also lower the 
burden for the business owner to collect the data and transfer 
the data to the underwriter. That is one category.
    The other category is incorporating in the decision, in the 
pricing decision of the underwriting decision, data sources 
that are available online now through the Internet and can be 
used as a proxy of business reputation and future business 
performance. There are rating and customer satisfaction Web 
sites like Yelp or OpenTable or Angie's List that give the 
opportunity to customers to rank small businesses and give 
feedback on the experience they had with the business.
    Our ability to collect that data, analyze that data, and 
use that data as an additional source for underwriting can be 
extremely useful, can be done in a way that is highly 
automated, low cost, and provide some insight as a complement 
to other more traditional sources, provide some insight into 
future business performance.
    Mr. Payne. Okay. Thank you.
    In the interests of time, I will yield back so we can 
possibly get to a second round. Thank you.
    Chairman Rice. Mr. Schweikert?
    Mr. Schweikert. Thank you, Mr. Chairman.
    And forgive me if this one becomes a little ethereal, but 
on particularly small, truly small businesses, you know, the 
one with under 25 employees that comes into an institution, and 
I don't know if this might be from a regulator's standpoint, if 
it were a decade ago and I am coming in for working capital, do 
you feel, for those of you on the lending side, you had more 
flexibility? Okay, you have a couple trucks that you have 
equity in. All right, well, we know you own your home. And are 
the regulators not allowing you to look at their full asset 
bundle, and do you get punished if you have done that look at 
the asset bundle when you have your auditing mechanics?
    Mr. Green.
    Mr. Green. Congressman, let me start with that. I do think 
the flexibility has been significantly reduced. I mentioned the 
regulatory scrutiny and documentation. You know, a lot of times 
the primary asset of a small business owner is their home and 
equity in their home. To be able to take that equity now as 
collateral requires a whole lot more cost, a whole lot more 
scrutiny, a lot more documentation than it would have before. 
And the same goes for other type assets. So, yes, sir, it 
absolutely has changed.
    Mr. Schweikert. On that same look on cosigners for debt, I 
don't know how many people in the room at sometime in their 
life have had a family member wanted to start a business, and 
we were all really, really stupid or very, very loving, 
whatever you want to consider it, in helping cosign, you know, 
them to get some of their debt instruments to start their 
business. And my understanding is that also is one of the 
things we will see dramatically less of as being an acceptable 
collateral mechanic today. I mean, is what I am being told your 
experiences?
    Mr. Green. Yes, sir. I will just add one more comment and 
let my other panelists talk about it.
    That is important, because I mentioned earlier about 
character sometimes being the tipping point. A lot of those 
guarantors are family members. And having a family member on 
there, father, mother, that would guarantee it, a lot of times 
they were tougher on that borrower maybe than the lender would 
be because of that.
    Mr. Schweikert. Well, it just makes Thanksgiving really 
uncomfortable when you have problems.
    Mr. Green. Yes, sir.
    Mr. Schweikert. And forgive me, is it Wyrich?
    Ms. Wiersch. Wiersch.
    Mr. Schweikert. Wiersch. Now, you actually, with your 
position, you actually touch probably a lot of accumulated 
data. Are you seeing something in the data that is sort of 
outside the folklore we are having this discussion of? You 
know, is it those small businesses aren't walking into their 
credit unions or their community banks to even ask for a loan? 
I mean, what do you see really going on in the data?
    Ms. Wiersch. Really, I think it is the combination of 
factors. Demand is definitely part of the issue. And, you know, 
in terms of some of these, the impact of regulatory scrutiny, 
as we are talking about it, it is interesting. If you look at 
the data, you see that the--and this is information that we can 
get in terms of why banks are tightening their lending 
standards. Regulation is less of a concern, in terms of 
regulatory policy, regulatory scrutiny, that is the side that 
we are looking at it from, it is less of a factor now. The 
bigger factors in tightening lending standards would be, you 
know, issues like their perception of the economic environment, 
their risk appetite, you know, those types of issues. Loan 
performance. You know, their market strategy.
    Mr. Schweikert. In that area, when I have some of my 
regulated entities, you know, my community banks come to me and 
say, our discussion about our buckets, I am holding too much 
real estate, I need to roll to this, roll to that. So there is 
entire silos of what you might have used in that cross-
collateralization that, boom, are gone, that you can't use. 
Doesn't that ultimately, that mechanic have the cascade effect 
of, don't come talk to us, I have no capacity?
    Ms. Wiersch. You know, I would just reiterate that, you 
know, lending decisions and the decisions about portfolio 
composition are truly--these are bank decisions and bank 
management decisions. There is an influence from----
    Mr. Schweikert. Are they truly a bank decision? I mean, I 
know that you are on the Fed side, not the FDIC side, but that 
is in many ways a regulator decision.
    Ms. Wiersch. There is some consideration of the information 
the regulators give. And I think maybe from the bankers' side 
they can provide a little more insight on that. From what we 
see in the data, it just shows that regulatory policy is less 
of a factor in determining, you know, the lending types of 
decisions. Now, in terms of this idea of----
    Mr. Schweikert. And I don't mean to cut----
    Ms. Wiersch. No, no, that is okay.
    Mr. Schweikert. We are over time. But this is actually a 
really interesting discussion. At some point I hope we can wrap 
to it. Because I am trying to mix what we get anecdotally with 
where we find actual data.
    So thank you, Mr. Chairman. Sorry for going over time.
    Chairman Rice. Thank you, Mr. Schweikert.
    Ms. Chu.
    Ms. Chu. Thank you, Mr. Chair.
    Mr. Farmakides, credit unions have expressed to the 
Committee that the barriers to entry to participate in SBA 
lending are too great, and that is why very few credit unions 
opt to participate. Now, you have a most interesting history 
because you worked for the SBA and yet you also represent the 
credit unions. So you have seen things from both sides of the 
fence. Other than what you have mentioned in your testimony 
about permanently exempting SBA loans from counting against the 
MBL cap, what else can we do to encourage credit union 
participation in SBA lending programs?
    Mr. Farmakides. I think there has been bills presented 
before us today that basically are looking for ways to allow 
credit unions like ours to do more SBA lending. I think the key 
for that is changing the way SBA administers its program. The 
way that they have done it right now, the rules and the 
regulations to follow are very difficult and time-consuming, 
and quite honestly are just almost impossible to clearly manage 
the process without a full-time person in place. So the 
changing in the way that the program is administered.
    The other areas that we most definitely could hopefully 
spur more credit unions to getting involved is taking that SBA 
loan, the entire loan, and changing the cap so that way it does 
not go against a credit union's lending cap. If you were to 
free that counting against the lending cap, more credit unions 
would be encouraged to invest the time, effort, and staff costs 
in order to get into that program. And it is, quite honestly, a 
time-intensive and expensive way of doing business, one that 
credit unions can serve in, but right now the way that the laws 
are currently written it is very preclusive.
    Ms. Chu. And specifically in terms of reducing the level of 
expense to participate in the SBA program, like what 
specifically, what would be one suggestion that you would have?
    Mr. Farmakides. There is a number of suggestions. But the 
one that I think to reduce the expense that we would want to 
have is lowering the cap, just lifting the cap entirely, 
because then it frees us up to make those decisions across the 
board both in commercial real estate finance, SBA lending, then 
also working lines of credit that in essence will allow us to 
do a better job managing our expenses against those type of 
loans.
    Ms. Chu. I see.
    Ms. Wiersch, you stated in your testimony that one factor 
in reduced credit supply for small businesses is a decade-long 
shift in the financial industry away from this type of lending. 
In your opinion, what could we do to reverse this trend?
    Ms. Wiersch. You know, the trend really, if you look at the 
data you can go back even to the 1980s, where we had 17,000 
banks in our country, and we are down to about 7,000 now. And 
most of that consolidation has taken place in the smallest 
category, you know, the small community banks. And, you know, 
whether that trend can be reversed, you know, I am not sure I 
can say that I see any evidence that is, you know, likely or in 
any way possible. I am sure it is possible, but I mean there is 
just no signal that that is even something that could happen.
    And as I am, you know, hearing the concerns about 
regulation and the pressure that puts on community banks, I 
would imagine that that is certainly a concern. We have not 
done any research to say that, you know, there are different 
factors forcing the regulation--or the consolidation. 
Regulation, I imagine, is just one of many factors in that. But 
I don't see any indications that the trend is changing.
    Ms. Chu. And, well, in terms of reversing this trend, is 
there any kind of additional Federal program that could fill 
the gap?
    Ms. Wiersch. I have not looked at anything or seen anything 
in that regard.
    Ms. Chu. Okay.
    Mr. Stibel, small businesses and startups are responsible 
for nearly two-thirds of net job creation. You mentioned in 
your testimony that there is a large discrepancy in access to 
capital across business size, where small and microbusinesses 
face tougher lending standards. SBA has traditionally filled 
this void, but small dollar loans have steadily declined since 
2007. What should be done to realign SBA's lending activity 
with its mission to provide access to capital to our Nation's 
smallest businesses?
    Mr. Stibel. I think that is a great question, and one that 
speaks to the problem that Ms. Wiersch was alluding to, which 
is, you know, we keep redefining the line and definition of 
what a small business actually is. And, you know, before we can 
even have a cogent argument and discussion about what can be 
done, we have got to figure out what the actual problem is.
    And, you know, small businesses are the same size they were 
100 years ago. They don't grow with inflation. Right? A start-
up starts with zero revenues and zero employees always. The 
problem is we have redefined the boundaries what a small 
business is over and over again, on one hand. And on another, 
we have got different definitions. I mean, I am sure if we 
asked everyone here, each one of us would have a different 
definition for what a small business is. It would be a good, 
strong definition. But without a singular definition, I think 
it is very hard to start addressing the problem.
    With regards to the smallest of businesses, the ones that 
are starting and the entrepreneurs and the true Main Street 
businesses, the core problem here is because those definitions 
keep growing, the government and banks keep shifting towards 
the larger businesses, and they ignore the current and present 
problem, which is most of our employment comes from the 
starting of businesses and their growth.
    And, you know, I think the first and foremost thing that 
the SBA can do is take a leadership position here. Define what 
it means to be a small business or a microbusiness or a 
startup, and then put a strong emphasis on lending to those 
companies, and encourage that lending first and foremost, and 
don't focus on loan size, don't focus on anything other than 
the size of a business, from start to whatever the current 
definition of small is.
    Ms. Chu. Thank you for that.
    Mr. Laplanche, I found your suggestions on how to reduce 
the underwriting costs to be very interesting. And you are the 
CEO of Lending Club. It is a credit platform that employs over 
300 people in San Francisco. But could you describe how you 
implement your ideas in this credit platform, the Lending Club?
    Mr. Laplanche. I can. I shared some of these ideas earlier, 
but I can expand on it. Certainly looking at the, like $2 
billion in loans that we have made this year, and these were 
mostly consumer loans, we have created what we call a credit 
review center that is essentially a technology tool that 
aggregates data from 25 different data sources. And what is 
interesting is now with the Internet there are many, many new 
data sources that are created on an ongoing basis, and many new 
things you can learn about individuals or small businesses.
    In the case of individuals, there are privacy issues, there 
are FCRA issues. In the case of small businesses, with the 
authorization of the business, that helps us be more flexible 
and access more freely some of these data sources. So I 
mentioned Yelp ratings, Angie's List ratings. Many small 
businesses, Main Street businesses, whether it is a hair salon 
or restaurant, have a Facebook page. The number of likes on 
their Facebook page is an indicator of a trend in the business. 
The number of tweets and retweets, so the activity on Twitter 
is also an indicator of performance of the business.
    There are data sources that are not readily available but 
can be accessed through partnerships. So, for example, the 
ability to connect to UPS or FedEx and get shipping data about 
a business, it is a third-party validation of that shipping 
data, and get that data collected and analyzed automatically is 
another sort of indication of performance and a forward 
indicator of business activity.
    So there are all these data sources that are available 
either publicly or through partnerships with companies that 
service small businesses, that because we are operate online in 
a way that utilizes technology we can connect to and analyze 
quickly and incorporate in the decision. But then the very 
interesting things we do is the capital can come from many 
different data--very different sources. And we have 
partnerships with a number of banks. So now over seven 
community banks are investors on the Lending Club platform and 
can sort of buy loans from Lending Club this way.
    Ms. Chu. Thank you for that.
    And, Mr. Green, as you know, one of the provisions of the 
Dodd-Frank Act known as the Collins amendment increases the 
minimum capital requirements on large financial institutions, 
while exempting bank holding companies with assets of $500 
million or less. This encompasses the overwhelming majority of 
all community banks. Will this provision help to level the 
playing field and allow community banks to better compete with 
big banks?
    Mr. Green. I think, Congresswoman, when you look at all the 
regulation combined, you know, what you mentioned on Dodd-
Frank, and then you go back to Basel III, Basel III goes into 
the larger banks, but that will ultimately come down to the 
smaller banks, there might be a window where the smaller 
institutions, below $500 million, you know, might have a slight 
advantage over the large ones as it relates to capital. But the 
general thought is that that, like most other regulations, will 
continue to filter down and ultimately impact them, and that 
would change as well.
    Ms. Chu. Okay. Thank you. I yield back.
    Chairman Rice. Thank you, Ms. Chu.
    Ms. Wiersch, you mentioned the decline in the number of 
small banks. In your data at the Federal Reserve, do you know 
what is the primary source of capital for small businesses?
    Ms. Wiersch. Well, in terms of where small businesses get 
funding, we have some information on this. We know from an NFIB 
comprehensive survey that 85 percent of small businesses 
identify a commercial bank as their primary financial 
institution. Some of the information outside of the commercial 
bank area we don't have a real good idea of who the borrower 
is. So we have limited information----
    Chairman Rice. You mean the lender, right? You mean the 
lender, not the borrower.
    Ms. Wiersch. I am sorry. Well, no, who the borrower is. 
Like, if you are looking at aggregate numbers for finance 
companies and who their--we don't know often who they are 
lending to. We know total loan volume, for example.
    Chairman Rice. But the NFIB says 85 percent of small 
businesses identify commercial banks as their primary source.
    Ms. Wiersch. That is correct.
    Chairman Rice. And would you say those would be large 
commercial banks or small commercial banks, or do you have any 
data on that?
    Ms. Wiersch. There isn't any specific breakdown on that. 
Now, what I can tell you is that there has been a shift in the 
commercial bank area where small businesses are lending from. 
And that shift has taken it from a little over a decade ago 
small community banks had a 51 percent market share of the 
small loan market, and that has completely shifted. So now the 
large banks have the largest share of the small loan market and 
the community banks share has shrunk significantly.
    Chairman Rice. Now, additional Federal regulation, whether 
it be Dodd-Frank or any other Federal regulation, increase 
compliance cost. Correct?
    Ms. Wiersch. Yes.
    Chairman Rice. So that just makes it more difficult to do 
business. Correct?
    Ms. Wiersch. I would say so.
    Chairman Rice. So if we are saying that, you know, small 
banks are declining, that historically they have had over half 
of the small business loans, wouldn't it be logical to assume 
that additional Federal regulation is one of the reasons why 
they are disappearing and small businesses are now moving to 
larger banks?
    Ms. Wiersch. I don't have any research to definitively say 
that. But, you know, certainly those are all factors in the 
trends that we are seeing.
    Chairman Rice. Thank you, ma'am.
    Mr. Stibel, you said something that was really interesting 
to me. My primary focus is jobs and American competitiveness. 
And I truly believe that competitiveness is measured in small 
degrees. You know, we are competing around the world. It is not 
major things, it is small degrees, because everybody is trying 
to compete, and everybody tries to do the best they can. And 
one of our primary advantages historically in America has been 
access to capital.
    You mentioned that small businesses don't have access to 
capital these days and that they have increased revenue, but 
they are not adding jobs because they don't have access to 
capital. Is that correct?
    Mr. Stibel. That is, yes.
    Chairman Rice. So can we translate that an increased 
presence of the Federal Government in the banking system 
through Dodd-Frank has led to a reduction in jobs?
    Mr. Stibel. The cause and effect between I think is a bit 
hard to dissect and pinpoint on either a single piece of 
legislation or any type of regulation. You know, regulation can 
be good or bad. But I think it is causing pain points right 
now. And, you know, ultimately, without lending you are not 
going to have job growth. You know, as I said earlier and you 
saw in that written testimony, we have now got some clear 
evidence that shows that, you know, America's small businesses 
are getting back on their feet. But America's individuals, the 
employees, are not.
    And, you know, we are seeing this in payroll numbers, we 
are seeing this in revenue growth personally. So in terms of 
people's income. And then we are seeing this in terms of a lack 
of an economic recovery on the job side, right, the jobless 
economy. And I think a lot of this does come down to the 
banking sector. And, you know, included in that is regulation.
    And, you know, we can do a lot more from that standpoint to 
free up that access to capital to the best businesses right now 
in our economy. And, you know, the irony is that it's the 
smallest businesses. They are the hardest to determine. They 
are often the hardest to find when you see more and more 
banking consolidation. But they tend to be the best ones for 
sustained growth, for job growth. And ultimately, it is those 
small businesses that will become the next large businesses.
    Chairman Rice. And so if Dodd-Frank makes it significantly 
more difficult to comply with regulatory burdens and small 
banks go out of business, then that is just that much less 
access to capital for small businesses. Correct?
    Mr. Stibel. If we see more and more small community banks 
and alternative sources of lending either disappearing, those 
banks going out of business, or becoming more restrictive in 
terms of how they lend to small businesses, then absolutely we 
will see less capital flowing into small businesses, and 
ultimately we will see less job growth.
    Chairman Rice. Ms. Wiersch, Dodd-Frank was passed on the 
theory that we were trying to prevent what happened in the 
financial crisis from happening again and keeping financial 
institutions from becoming too big to fail. Correct?
    Ms. Wiersch. Yes.
    Chairman Rice. All right. So, in your opinion, does the 
regulatory burden under Dodd-Frank fall disproportionately on 
bigger banks or smaller banks?
    Ms. Wiersch. I can't say. I mean, my research did not 
address that specifically.
    Chairman Rice. Thank you, ma'am.
    Mr. Green, under Dodd-Frank does the regulatory burden fall 
more disproportionately on larger banks or smaller banks?
    Mr. Green. Mr. Chairman, it does fall more 
disproportionately on the smaller banks than the larger banks. 
The cost, as I mentioned, is a fixed cost spread over smaller 
assets. The restrictive nature of some of the documentation, 
underwriting standards, all of those type things limit also the 
ability to make certain type loans.
    Chairman Rice. Thank you, sir.
    Mr. Laplanche, you mentioned something that was very 
interesting to me. You said that no underwriting process will 
ever be better than the relationship between a borrower and a 
community banker. And why is that, sir?
    Mr. Laplanche. I think it comes back to the fourth C of 
credit, character. And I think especially for small businesses 
and for startups, there is just not a lot of data you can look 
at.
    Chairman Rice. Okay. So it comes down to I call it 
community banking or relationship banking. Hard to quantify and 
put in a file. Correct?
    Mr. Laplanche. That is right.
    Chairman Rice. And the effect of the regulations under 
Dodd-Frank are to try to make every loan fit in this box. 
Correct?
    Mr. Laplanche. That is my understanding. I am no expert 
in----
    Chairman Rice. So you take that discretion out, you 
eliminate that discretion, and the effect of that, in my 
opinion, is less lending to small business. Would that be a 
logical conclusion?
    Mr. Laplanche. That seems to be a logical conclusion, yes.
    Chairman Rice. Mr. Green, would you agree with that?
    Mr. Green. Yes, sir, I would.
    Chairman Rice. Let's talk for a minute about, so if we are 
taking the relationship banking off the table, who does that 
affect? Does that affect more large businesses that want to 
borrow with high income and plenty of assets, or does that 
affect more small businesses that want to borrow, start ups and 
so forth?
    Mr. Green. It affects the smaller businesses. Again, the 
quality of the financial information for a smaller business is 
not as robust as a larger business. And as a result, you have 
to rely more on relationships, knowledge of that customer, 
their community, their competitors, things that are intangible 
for smaller businesses, smaller owners than you would larger 
businesses.
    Chairman Rice. So we are penalizing small banks with this 
additional regulation under Dodd-Frank, we are penalizing small 
businesses with this additional regulation under Dodd-Frank.
    Ms. Wiersch, where do most of the jobs come from, big 
businesses or large businesses?
    Ms. Wiersch. If you looking back to the 1970s, the highest 
net job creation rate is for among the smallest of businesses.
    Chairman Rice. Thank you very much.
    Mr. Farmakides, do you all do mortgage loans?
    Mr. Farmakides. We do, sir.
    Chairman Rice. Are you familiar with these new qualified 
mortgage regulations?
    Mr. Farmakides. I am, sir.
    Chairman Rice. How is that going to affect your mortgage 
lending?
    Mr. Farmakides. It is going to create some significant 
issues for us.
    Chairman Rice. All right. Now, so if somebody comes in with 
high income and plenty of assets, is that going to affect the 
loan to them at all, these qualified mortgage rules?
    Mr. Farmakides. No, it is not.
    Chairman Rice. But somebody who comes in with a 
relationship with you guys, that you may recognize that they 
might not have quite a 41 percent loan to whatever that number 
is, income to loan ratio, but you feel like they are good for 
the loan and you otherwise would have made that loan in the 
past, are you going to be able do that now under this Dodd-
Frank?
    Mr. Farmakides. Under great difficulty.
    Chairman Rice. It is going to be very difficult to do.
    Mr. Farmakides. Nonqualified mortgage.
    Chairman Rice. So it is going to make it harder for you to 
loan to moderate income, middle class people, but it is not 
going to affect the higher income people. Is that correct?
    Mr. Farmakides. It is going to make it more difficult.
    Chairman Rice. So we are penalizing small banks, we are 
penalizing small businesses, we are penalizing low and moderate 
income people, and we are preventing job creation. Other than 
that, this is a great law. Thank you.
    I am going to defer.
    Mr. Payne.
    Mr. Payne. Thank you, Mr. Chairman.
    And this is, I guess, a question any panelist could answer. 
You know, it has been stated today that there is a weaker 
demand for credit as an issue in most of your testimonies. 
Should we expect this demand to return to prerecession levels 
or accept weak credit demand and credit alternatives as the new 
norm or the new trend?
    Mr. Green. I will start out. The uncertainty in the economy 
limits the small business. They are more hesitant to invest in 
capital goods to expand because the future is less certain. As 
a result, that has created less demand. If there is more 
clarity about the future and elimination or reduction in 
uncertainty, I think you will see greater expansion in the 
economy, greater capital expansion, greater job creation, which 
will lead to more loan demand.
    Mr. Farmakides. I just am going to give a slightly 
different picture here from a credit union perspective. We are 
in the last year seeing greater demand for smaller lines of 
credit. We are talking lines of credit under $250,000, more 
opportunity. But we are still not able to serve that. So we are 
seeing greater opportunity in 2013. We have closed 13 loans, 10 
of them to small businesses, 2 of which were startups, small 
working capital lines of credit that currently the market isn't 
providing that capital access. And because of the current caps 
that are in place, we are having a really hard time getting 
that money out there. So there is regulatory caps that we would 
hope could be modified in order to allow us to make those type 
of loans.
    Mr. Stibel. And I would just add to the distinction between 
those two last comments and say I actually believe that the 
demand is there. And we are seeing that with the surveys that 
we are doing to the small businesses out there. It is more the 
desire that is lacking right now.
    Part of that is certainly uncertainty. A big part of that 
is frustration, whether it is regulatory, whether it is just 
the banks turning, you know, turning businesses down throughout 
the recession. But the demand is absolutely there. And once, 
you know, once businesses become more comfortable that the 
loans are available you will see lending improve.
    Mr. Payne. Okay.
    Yes, sir.
    Mr. Laplanche. If I might add, I think that is absolutely 
right. And the supply and demand are very tightly intertwined. 
A survey from the Federal Reserve Bank of New York shows that 
again, out of 70 small business owners who wanted capital, 29 
did not even apply. So there is a self-selection out of the 
process for many small business owners. So when they feel 
supply of capital will be there, I think we will see demand 
come back.
    Mr. Payne. Okay.
    And, Ms. Wiersch, you know, in your testimony, you point 
out the fact that more lending is secured by collateral now 
than before the great recession. Do you think reversing this 
trend would be beneficial for small business? And what could we 
do in our capacity in Congress to help support that?
    Ms. Wiersch. You know, it is an interesting question. 
Looking at the shift in data, we do see that more banks are 
requiring collateral. I am not sure that there is a policy 
solution to alter, you know, the way that banks are making 
their lending decisions and setting the terms of their lending. 
But it is important to note that, you know, as property values 
rise that will help the collateral side of things so borrowers 
can meet bank lending standards.
    Mr. Payne. Okay. Thank you.
    I yield back, sir.
    Chairman Rice. Mr. Mulvaney, you have anything?
    Ms. Chu?
    Okay. Well, I just have one more question, and that is 
what, if anything, just one thing, would you guys suggest that 
the Federal Government could do to improve the small business 
lending situation?
    Ms. Wiersch, I want to start with you and we will go down 
the line.
    Ms. Wiersch. Of course our research did not attempt to make 
any policy recommendations. The one issue I would like to 
reiterate is that this is really a complex issue. There are a 
lot of factors at play. And any policy action should consider 
all of these factors. And addressing just one factor is 
unlikely to really move the needle on this problem as, you 
know, there are so many things happening here.
    Chairman Rice. Mr. Stibel.
    Mr. Stibel. I think it is as simple as defining what a 
small business is. You know, if I had one thing that I would 
recommend doing, start there.
    Chairman Rice. So this is for SBA lending, is what you are 
talking about?
    Mr. Stibel. I would love to see it across the board. I 
mean, there is a bill right now on the floor for small business 
access to capital where they are talking about certain 
businesses' funds being upwards of $150 million in size. Puts 
our business in the small business category. So I think it is 
critically important to do that broadly, and to make sure that 
that is disseminated not just through the SBA, but through to 
the IRS when they are looking at small business tax credits, 
through to banks, both community and large banks, and through 
alternative lending sources.
    Chairman Rice. Thank you, sir.
    Mr. Stibel. You are welcome.
    Chairman Rice. Mr. Laplanche.
    Mr. Laplanche. So I focus on the data accessibility part of 
the equation, because we use so much data as part of the 
underwriting. If the government could make more data more 
readily available to lenders, I think that would help the 
underwriting decision. So we have had discussions with the 
Treasury on better access to IRS data and the ability with the 
business owner to easily access tax filings so that we can 
incorporate this data into the lending decision. That is one 
area where the government can help.
    Chairman Rice. Thank you, sir.
    Mr. Green.
    Mr. Green. Thank you. I think, Congressman, Mr. Chairman, 
the mountain of regulations that have been levied on the 
banking industry has had the unintended consequence of hurting 
most, if not all of the community banks. I would hope that 
Congress would maybe go back and look at some of those 
regulations to see if there is a disparity between what was 
originally intended and what has actually happened, maybe 
modify some of those, certainly going forward, those that are 
in the works to make sure that that does not continue.
    I will add that, maybe in closing comments, that there is a 
tremendous amount of capacity within the banking industry to 
lend to small businesses. The capital levels are the highest 
they have ever been. Liquidity is there. Competition is strong. 
There are nonbank competitors, like the credit unions, farm 
credit, others.
    I know the gentleman to my right has mentioned the cap. In 
our State, the credit union that--the percentage of business 
loans relative to assets at the highest level is below 5 
percent. So they have tremendous capacity as well. In fact, I 
think nationally less than 1 percent of the credit unions are 
at or near that peak. So there is tremendous capacity in the 
banks, farm credit system, significant capacity with the credit 
unions, and alternative lenders. So if we could find a way, 
again, to eliminate or reduce those unfavorable negative 
consequences, that would be very helpful.
    Chairman Rice. Thank you, sir.
    Mr. Farmakides.
    Mr. Farmakides. The one thing for us would be to remove the 
member business lending cap and reintroduce the Credit Union 
Small Business Lending Act from the 112th Congress, which 
directs the SBA Administrator to establish programs for credit 
unions. I think that would be very beneficial for us.
    Chairman Rice. Thank you.
    Ms. Chu.
    Ms. Chu. If I could ask a follow-up question.
    Mr. Stibel, why is the SBA definition of small business not 
adequate?
    Mr. Stibel. For a couple of reasons. Number one, there is 
no single definition. So the definitions right now are by 
category. And number two, and this is probably the most 
important thing, no one else is using it. And that is the real 
reason. What you need is you need a centralized definition that 
Bank of America is using, that Wells Fargo is using, that 
Lending Club is using, that we are using so that we can 
actually have a proper dialogue about what a small business is. 
So it is less about what the definition is. It is more about 
making sure that everyone follows that definition.
    Ms. Chu. Okay.
    Chairman Rice. I just want to thank all you witnesses for 
being here today. Your testimony has been very enlightening. 
Thank you very much for putting up with me. And this hearing is 
adjourned.
    [Whereupon, at 11:26 a.m., the subcommittee was adjourned.]
                            A P P E N D I X


                          Statement by

                       Ann Marie Wiersch

                         Policy Analyst

               Federal Reserve Bank of Cleveland

                           before the

    Subcommittee on Economic Growth, Tax, and Capital Access

                  Committee on Small Business

                 U.S. House of Representatives

                        December 5, 2013
    Chairman Rice, Ranking Member Chu, and distinguished 
members of the subcommittee, it is an honor to testify before 
you today on the state of small business lending. My testimony 
will focus on the decline in lending to small businesses and 
the factors that are driving that decline.\1\ My remarks 
represent my own views and are not official views of the 
Federal Reserve Bank of Cleveland or any other element of the 
Federal Reserve System.
---------------------------------------------------------------------------
    \1\ The analysis presented in this Statement draws extensively from 
the Federal Reserve Bank of Cleveland publication, ``Why Small Business 
Lending Isn't What It Used To Be,'' Ann Marie Wiersch and Scott Shane, 
2013. (http://www.clevelandfed.org/research/commentary/2013/2013-
10.cfm).

---------------------------------------------------------------------------
    Background

    Recent industry and media reports provide a mix of 
perspectives on the sate of small business lending. 
Contradictory messages abound, and often result from 
inconsistent definitions of what constitutes a small business 
and from the absence of comprehensive and reliable data on 
small business lending. Banks and government agencies use a 
wide range of parameters to classify firms as small businesses. 
One frequently cited definition of what constitutes a small 
business is so expansive that it includes more than 99 percent 
of the businesses in the U.S. It should not come as a surprise 
that we hear so many differing reports about small business 
conditions when firms of so many different sizes and industries 
are compared with one another by analysts relying on different 
definitions of a small business. In addition, the considerable 
lack of data on small business lending and the variance in the 
size of firms or loans included in the lending data leads to 
inconsistency in reporting among the data that are available.

    Small business lending has dropped substantially since the 
Great Recession. While some measures of small business lending 
are now above their lowest levels since the economic downturn 
began, they remain far below their levels before it. For 
example, in the fourth quarter of 2012, the value of commercial 
and industrial loans of less than $1 million--a common proxy 
for small business loans--was 78.4 percent of its second-
quarter 2007 level, when measured in inflation-adjusted 
terms.\2\
---------------------------------------------------------------------------
    \2\ As reported by the Federal Deposit Insurance Corporation 
(http://www2.fdic.gov/qbp/). This report focuses on traditional 
commercial bank lending, as it is the most frequently utilized source 
of small business credit. According to a 2011 survey by the National 
Federation of Independent Businesses (http://www.nfib.com/research-
foundation/surveys/credit-study-2012), 85 percent of businesses 
reported that a commercial bank was their primary financial 
institution, while only 5 percent has such a relationship with a 
nondepository financial institution (such as private finance 
companies).

    Some policymakers are concerned that the decline in small 
business lending may be hampering the economic recovery. Small 
businesses employ roughly half of the private sector labor 
force and provide more than 40 percent of the private sector's 
contribution to gross domestic product. If small businesses 
have been unable to access the credit they require, they may be 
---------------------------------------------------------------------------
underperforming, slowing economic growth and employment.

    Industry participants, including small business owners, 
bankers, and regulators have offered differing reasons for the 
decline in lending. However, recent analysis by the Federal 
Reserve Bank of Cleveland shows that there is no single 
explanation, but rather a number of factors driving this trend. 
Fewer small businesses are interested in borrowing than in 
years past, and at the same time, small business financials 
have remained weak, depressing small business loan approval 
rates. In addition, collateral values have stayed low, as real 
estate prices have declined, limiting the amount that small 
business owners can borrow.

    Furthermore, increased regulatory scrutiny has caused banks 
to boost their lending standards, resulting in a smaller 
fraction of creditworthy borrowers. Finally, shifts in the 
banking industry have had an impact. Bank consolidation has 
reduced the number of banks focused on the small business 
sector, and small business lending has become relatively less 
profitable than other types of lending, reducing some bankers' 
interest in the small business credit market.

    Because none of these factors is the sole cause of the 
decline in small business credit, any proposed intervention 
should account for the multiple factors affecting small 
business credit.

    Weaker Demand for Credit

    Small businesses were hit hard by the economic downturn. 
Analysis of data from the Federal Reserve Survey of Consumer 
Finances reveals that the income of the typical household 
headed by a self-employed person declined 19 percent in real 
terms between 2007 and 2010. Similarly, Census Bureau figures 
indicate that the typical self-employed household saw a 17 
percent drop in real earnings over a comparable period.\3\
---------------------------------------------------------------------------
    \3\ Federal Reserve Survey of Consumer Finances (http://
www.federalreserve.gov/econresdata/scf/scf<INF>--</INF>2010.htm): 
Census Bureau: Income, Poverty, and Health Insurance Coverage in the 
United States: 2010 (http://www.census.gov/prod/2011pubs/p60-239.pdf).

    Weak earnings and sales mean that fewer small businesses 
are seeking to expand. Data from the Wells Fargo/Gallup Small 
Business Index--a measure drawn from a quarterly survey of a 
representative sample of 600 small business owners whose 
businesses have up to $20 million a year in sales--show that 
the net percentage of small business owners intending to 
increase capital investment over the next 12 months fell 
between 2007 and 2013. In the second quarter of 2007, it was 16 
(the fraction intending to increase capital investment was 16 
percentage points higher than the fraction intending to 
decrease capital investment), while in the second quarter of 
2013, it was negative 6 (the fraction intending to decrease 
capital investment was 6 percentage points higher than the 
fraction intending to increase it). Similarly, the net 
percentage of small business owners planning to hire additional 
workers over the next 12 months was 24 in the second quarter of 
2007, but only 6 in the second quarter of 2013.\4\
---------------------------------------------------------------------------
    \4\ Wells Fargo Gallup Small Business Index (https://
wellsfargobusinessinsights.com/research/small-business-index).

    Reduced small business growth translates into subdued loan 
demand. Thus, it is not surprising that the percentage of small 
business members of the National Federation of Independent 
Businesses (NFIB) who said they borrowed once every three 
months fell from 35 percent to 29 percent between June 2007 and 
---------------------------------------------------------------------------
June 2013.

    Some of the subdued demand for loans may stem from business 
owners' perceptions that credit is not readily available. 
According to the Wells Fargo/Gallup Small Business Index 
survey, in the second quarter of 2007, 13 percent of small 
business owners reported that they expected that credit would 
be difficult to get in the next 12 months. By the second 
quarter of 2013 that figure had increased to 36 percent. By 
contrast, 58 percent of small business owners said credit would 
be easy to get during the next 12 months when asked in 2007, 
compared to 24 percent six years later.

    Reduced Credit Supply

    Lenders are approving fewer small business loan 
applications, since many firms lack the cash flow, credit 
scores, and collateral that banks require. According to the 
latest Wells Fargo/Gallup Small Business Index, 65 percent of 
small business owners said their cash flow was ``good'' in the 
second quarter of 2007, compared to only 48 percent in the 
second quarter of 2013.

    Small business credit scores are lower now than before the 
Great Recession. The Federal Reserve's 2003 Survey of Small 
Business Finances indicated that the average PAYDEX score of 
those surveyed was 53.4.\5\ By contrast, the 2011 NFIB Annual 
Small Business Finance Survey indicated that the average small 
company surveyed had a PAYDEX score of 44.7. In addition, 
payment delinquency trends point to a decline in business 
credit scores. Dun and Bradstreet's Economic Outlook Reports 
chart the sharp rise in the percent of delinquent dollars 
(those 91 or more days past due) from a level of just over 2 
percent in mid-2007 to a peak above 6 percent in late-2008. 
While delinquencies have subsided somewhat since then, the 
level as of late 2012 remained at nearly 5 percent, notably 
higher than the pre-recession period.
---------------------------------------------------------------------------
    \5\ 2003 Survey of Small Business Finances (http://
www.federalreserve.gov/pubs/oss/oss3/ssbf03/ssbf03home.html).

    More lending is secured by collateral now than before the 
Great Recession. The Federal Reserve Survey of Terms of 
Business Lending shows that in 2007, 84 percent of the value of 
loans under $100,000 was secured by collateral. That figure 
increased to 90 percent in 2013. Similarly, 76 percent of the 
value of loans between $100,000 and $1 million was secured by 
collateral in 2007, versus 80 percent in 2013.\6\
---------------------------------------------------------------------------
    \6\ Survey of Terms of Business Lending (http://
www.federalreserve.gov/releases/e2/default.htm).

    The decline in value of both commercial and residential 
properties since the end of the housing boom has made it 
difficult for businesses to meet bank collateral requirements. 
A significant portion of small business collateral consists of 
real estate assets. For example, the Federal Reserve's 2003 
Survey of Small Business Finances showed that 45 percent of 
---------------------------------------------------------------------------
small business loans were collateralized by real estate.

    On the residential side, Barlow Research, a survey and 
analysis firm focused on the banking industry, reports that 
approximately one-quarter of small company owners tapped their 
home equity to obtain capital for their companies, both at the 
height of the housing boom and in 2012. The value of home 
equity has dropped substantially since 2006. According to the 
Case-Shiller Home Price Index, the seasonally adjusted 
composite 20-market home price index for April 2013 was only 
73.8 percent of its July 2006 peak.

    On the commercial side, the Moody's/Real commercial 
property price index (CPPI) shows that between December 2007 
and January 2010, commercial real estate prices dropped 40 
percent. While prices have recovered somewhat since then, the 
index (as of May 2013) is still 24 percent lower than in 2007.

    Tighter Lending Standards

    At the same time that fewer small businesses are able to 
meet lenders' standards for cash flow, credit scores, and 
collateral, bankers have increased their credit standards, 
making even fewer small businesses appropriate candidates for 
bank loans than before the economic downturn. According to the 
Office of the Comptroller of the Currency's Survey of Credit 
Underwriting Practices, banks tightened small business lending 
standards in 2008, 2009, 2010, and 2011.

    Loan standards are now stricter than before the Great 
Recession. In June 2012, the Federal Reserve Board of Governors 
asked loan officers to describe their current loan standards 
``using the range between the tightest and easiest that lending 
standards at your bank have been between 2005 and the 
present.'' For nonsyndicated loans to small firms (annual sales 
of less than $50 million), 39.3 percent said that standards are 
currently ``tighter than the midpoint of the range,'' while 
only 23 percent said they are ``easier than the midpoint of the 
range.''

    Moreover, while banks have loosened lending standards for 
big businesses during the recent economic recovery, they have 
maintained tight standards for small companies. The Office of 
the Comptroller of the Currency's Survey of Credit Underwriting 
Practices tracks the changes in lending standards for small and 
large customers between 2003 and 2012. The net tightening of 
lending standards (the percentage of banks tightening lending 
standards minus the percentage loosening them) was slightly 
greater for small businesses than large businesses in 2009 and 
2010. However, in 2011 and 2012, there was a net tightening of 
lending standards for small businesses, despite a net loosening 
for big businesses.\7\
---------------------------------------------------------------------------
    \7\ The Office of the Comptroller of the Currency Survey of Credit 
Underwriting Practices (http://www.occ.gov/publications/publications-
by-type/survey-credit-underwriting-practices-report/index-survey-
credit-underwriting-practices-report.html).

    While banks adjust lending standards for a number of 
reasons, there is some evidence that heightened scrutiny by 
regulators had an impact during and after the Great Recession. 
Recent research quantifies the impact of tighter supervisory 
standards on total bank lending. A study by Bassett, Lee, and 
Spiller finds an elevated level of supervisory stringency 
during the most recent recession, based on an analysis of bank 
supervisory ratings.\8\ This research concludes that an 
increase in the level of stringency can have a statistically 
significant impact on total loans and loan capacity for several 
years--approximately 20 quarters--after the onset of the 
tighter supervisory standards.
---------------------------------------------------------------------------
    \8\ ``Estimating Changes in Supervisory Standards and Their 
Economic Effects,'' William F. Bassett, Seung Jung Lee, and Thomas W. 
Spiller. Federal Reserve Board, Divisions of Research and Statistics 
and Monetary Affairs, Finance and Economics Discussion Series, no. 
2012-55. (http://www.federalreserve.gov/pubs/feds/2012/201255/
201255pap.pdf).

---------------------------------------------------------------------------
    Longer-Term Trends

    Declines in small business lending also reflect longer-term 
trends in financial markets. Banks have been exiting the small 
business loan market for over a decade. This realignment has 
led to a decline in the share of small business loans in banks' 
portfolios. The FDIC reports that the fraction of nonfarm, 
nonresidential loans of less than $1 million has declined 
steadily since 1998, dropping from 51 percent to 29 percent.

    The decades-long consolidation of the banking industry has 
reduced the number of small banks, which are more likely to 
lend to small businesses. Moreover, increased competition in 
the banking sector has led bankers to move toward bigger, more 
profitable, loans. That has meant a decline in small business 
loans, which are less profitable because they are banker-time 
intensive, are more difficult to automate, have higher costs to 
underwrite and service, and are more difficult to securitize.

    Conclusion

    The decline in the amount of small business credit since 
the financial crisis and Great Recession is unmistakable. The 
most recently available data put the inflation-adjusted value 
of small commercial and industrial loans at less than 80 
percent of their 2007 levels. While different industry 
participants offer different reasons for the drop in small 
business credit, a careful analysis of the data suggests that a 
multitude of factors explain the decline.

    The forces unleashed by the financial crisis and Great 
Recession added to a longer-term trend. Some banks have been 
shifting activity away from the small business credit market 
since the late 1990s, as they have consolidated and sought out 
more profitable sectors of the credit market. Small business 
demand for lending has decreased, as fewer small businesses 
have sought to expand. Credit has also become harder for small 
businesses to obtain. A combination of reduced 
creditworthiness, the declining value of homes (a major source 
of small business loan collateral), and tightened lending 
standards has reduced the number of small companies able to tap 
credit markets.

    This confluence of events makes it unlikely that small 
business credit will spontaneously increase anytime in the near 
future. Given the contribution that small businesses make to 
employment and economic activity, policymakers may be inclined 
to intervene to promote greater access to credit for small 
business owners. When considering means of intervention, 
however, it is important to be cognizant that multiple factors 
are affecting small business credit demand and supply. Any 
proposed solutions should consider the combined effect of all 
of the factors involved.
                 UNITED STATES HOUSE OF REPRESENTATIVES


                      COMMITTEE ON SMALL BUSINESS


        SUBCOMMITTEE ON ECONOMIC GROWTH, TAX AND CAPITAL ACCESS


    HEARING: ``EXAMINING THE POST-RECESSION SMALL BUSINESS LENDING 
                             ENVIRONMENT''


    TESTIMONY OF JEFF STIBEL, CHAIRMAN AND CEO OF DUN & BRADSTREET 
                           CREDIBILITY CORP.


                            DECEMBER 5, 2012

    Thank you Chairman Rice, Ranking Member Chu and the 
Committee for inviting me to testify on this important topic. 
By way of background, I am currently Chairman and CEO of Dun & 
Bradstreet Credibility Corp. Dun & Bradstreet Credibility Corp. 
is the leading provider of credit building and credibility 
solutions for businesses. Dun & Bradstreet Credibility Corp. 
provides the only real business credit monitoring solution 
available to companies looking to monitor and impact their own 
business credit profile. Our leading credit monitoring products 
are used by hundreds of thousands of companies interested in 
helping protect their business reputation. Dun & Bradstreet 
Credibility Corp. additionally resells D&B solutions that help 
businesses gauge their potential risk by tracking the credit 
and creditworthiness of the companies with which they do 
business.

    Dun & Bradstreet Credibility Corp. is headquartered in Los 
Angeles, CA with offices throughout North America.

    Current State of the Economy

    Across the United States, businesses are recovering from 
the recession. The US GDP is expanding and the stock market is 
performing well. Our proprietary data shows similar progress. 
In order to effectively analyze the marketplace, we divide 
businesses into four categories by size: micro (less than 
$500,000 in annual revenue), small (less than $5 million in 
annual revenue), medium ($5 million to $100 million in annual 
revenue) and large (over $100 million in annual revenue). 
Across each of these categories, businesses are doing well and 
we are seeing strong growth in annual revenues.

    But when you look at the specific categories, an 
interesting trend emerges. It turns out that the smaller the 
business, paradoxically the better the performance. This is in 
contrast to what most people believe is happening. Yet, the 
numbers bear out the fact that the growth of sales are 
increasing the fastest in the smallest of businesses. The micro 
segment is performing best, followed by small, medium, and 
large. Small business growth is accelerating at a much faster 
pace than that of its larger counterparts. In 2013 alone, micro 
business revenue on average grew by 2.14% while small business 
revenue grew by 1.18%. Yet medium business revenue stayed 
relatively flat, losing 0.2% overall. The large businesses on 
average in our data decreased revenue by 1.56%.\1\
---------------------------------------------------------------------------
    \1\ Proprietary data is composed of D&B Credibility Corp. data, and 
various other sources compiled by D&B Credibility Corp. for the year 
2013.

---------------------------------------------------------------------------
    Current State of Job Growth

    Despite the economic progress driven by business 
performance since the recession, the country has not recovered 
jobs at the same pace. Job growth, while improving, is slow by 
post-recession standards: The New York Times reported last year 
that percentage change in payroll, from business cycle trough 
to business cycle peak, averaged from all previous recessions, 
is 15%.\2\ For the current recovery it is 2%. By contrast, in 
an average recovery, corporate profits rise 38 percent from 
trough to peak. In this recovery, they have risen 45 percent. 
We have better than average profitability and much, much lower 
than average job growth.
---------------------------------------------------------------------------
    \2\ Catherine Rampell, ``Is This Really the Worst Economic Recovery 
Since the Depression?, New York Times, August 10, 2012.

    Our proprietary data supports the conclusion that on 
average, job growth has been slow relative to other recessions. 
As with revenue growth, the lack of job growth is largely a 
tale of two economies. However, for job growth, it is the 
smallest businesses that are suffering, not thriving. Our data 
show that the rate of job growth is the lowest in the smallest 
business categories. In 2013, large businesses increased 
employment by 5.53%, medium-sized businesses increased 
employment by 0.93%, small businesses by 0.57%, and micro by 
only 0.44%.\3\ It is a great paradox, an alarming problem, that 
even though small businesses are growing revenues at a faster 
pace, they are adding the fewest jobs.
---------------------------------------------------------------------------
    \3\ Proprietary data is composed of D&B Credibility Corp. data, and 
various other sources compiled by D&B Credibility Corp. for the year 
2013.

    Jobless Recovery is Due to Weak Hiring at the Small 
---------------------------------------------------------------------------
Business Level

    Given that in past economic cycles, small businesses were 
the primary driver of employment growth, we can infer from our 
results that the disconnect between business success and job 
growth is one of the reasons for the ``jobless recovery.'' When 
you dissect the data further and analyze revenues per employee, 
a proxy for productivity, the results bear out this conclusion. 
Employee productivity is rising at the fastest rate for the 
smallest businesses, as measured by sales growth per employee. 
From January to November 2013, micro businesses experienced 
1.86% growth per employee, small businesses 0.75%, medium 
businesses -1.14%, and large businesses -6.72%.\4\ (See 
attached figure.) The smaller the business, the greater the 
productivity gain on average per employee. Yet despite this 
gain in productivity, small businesses are not adding to their 
employment rosters at the same pace. Strong sales and greater 
productivity, without employment growth, yields a jobless 
recovery.
---------------------------------------------------------------------------
    \4\ Proprietary data is composed of D&B Credibility Corp. data, and 
various other sources compiled by D&B Credibility Corp. for the year 
2013.

    Small businesses not only employ almost half of the private 
sector, but they are also responsible for the lion's share of 
new jobs created. In the past 20 years, about two-thirds of all 
net new jobs were created by small businesses.\5\ SBA data show 
that small businesses (those with 500 or less employees) amount 
to 99.7% of all businesses and employ 49.1% of private sector 
employment.\6\ This means that small business job growth is 
critical after a recession.
---------------------------------------------------------------------------
    \5\ SBA Office of Advocacy Frequently Asked Questions, Published 
September 2012.
    \6\ SBA Small Business Profile, Published February 2013.

    Of those small businesses, microbusinesses are particularly 
important to job growth. According to the Association for 
Enterprise Opportunity (AEO), 92% of all U.S. businesses are 
microbusinesses. Despite their size, the direct, indirect, and 
induced effects of these microbusinesses on employment amounted 
to 41.3 million jobs, or 31% of all private sector employment. 
``If one in three Main Street microbusinesses hired a single 
employee, the United States would be at full employment,'' the 
AEO reported in 2011 and reiterated in a new report last 
month.\7\
---------------------------------------------------------------------------
    \7\ ``Bigger than You Think: The Economic Impact of Microbusiness 
in the United States,'' reported by Association for Enterprise 
Opportunity (AEO), 2013.

---------------------------------------------------------------------------
    The Root Problem Is Access to Capital

    We tend to equate job growth with business success but the 
reality is far more nuanced than that. Adding jobs is a capital 
investment, not a cash flow issue. Additional employees are 
hired for future growth, similarly to how business owners 
purchase computers, software, and other capital goods. 
Businesses may need to add jobs when revenues and profits rise 
but they cannot do so without a capital outlay.

    For large businesses, the cost of employment is relatively 
low, so this point becomes largely academic. As revenues and 
profits rise, the largest businesses simply dip into their 
capital reserves to hire more people and grow their businesses. 
But small businesses do not have reserves significant enough to 
support new employment growth. It is a far bigger investment 
for a small business to hire an additional employee than for a 
larger business to do so. For microbusinesses, the situation is 
even more acute: adding a single employee to a microbusiness--
where the average number of employees is 2.34 \8\--would 
require increasing payroll by nearly 50%. For a small business 
to increase hiring, they need access to capital.
---------------------------------------------------------------------------
    \8\ Glenn Muske, Michael Woods, Jane Swinney and Chia-Ling Khoo, 
``Small Businesses and the Community: Their Role and Importance Within 
a State's Economy,'' Journal of Extension, Vol 45 (1): February 2007.

    Today, access to capital for small businesses is a 
significant problem. The data we've collected with our partners 
at Pepperdine University show a large discrepancy in access to 
capital across business size.\9\ (See attached figure). The 
largest businesses are able to secure financing with relative 
ease and on strong terms, including historically low interest 
rates--the United States Federal Funds Rate is currently 0.25% 
and the WSJ Prime Rate is 3.25%.\10\
---------------------------------------------------------------------------
    \9\ Joint survey with the Pepperdine Capital Access Index Survey 
Responses, Fourth Quarter 2013
    \10\ Interest rate obtained from http://www.bankrate.com/rates/
interest-rates/prime-rate.aspx.

    As business size gets smaller, access to capital shrinks 
dramatically. 66% of small business owners indicate that the 
current business-financing environment is restricting growth 
opportunities for their businesses, while only 44% of medium 
sized businesses feel this way. 74.2% of small business owners 
feel it is difficult to raise new external debt financing, 
while only 45.3% of medium size business owners feel this 
way.\11\
---------------------------------------------------------------------------
    \11\ Pepperdine Capital Access Index Survey Responses, Fourth 
Quarter 2013

    Our data show that 28% of micro, small, and medium sized 
businesses sought external financing in the past three 
months.\12\ Of those, most (57.1%) sought a business bank 
loan.\13\ The approval rates vary widely but the trend is 
consistent with our other data: 75% of medium-sized businesses 
who sought a bank loan were successful, as compared to 34% of 
small businesses and only 19% of microbusinesses.\14\ Even 
alternative sources of capital that were once thought of as 
easy to acquire are becoming difficult for the smallest 
businesses in this environment. Of those business owners who 
attempted to acquire a business credit card, for example, in 
the past three months, only 51% of microbusinesses were 
successful, as compared to 62% of small businesses and 75% of 
medium-size businesses.\15\ It is alarming that almost half of 
all microbusinesses in our data were unable to secure a 
business credit card, traditionally one of the easiest sources 
of capital.
---------------------------------------------------------------------------
    \12\ Pepperdine Capital Access Index Survey Responses, Fourth 
Quarter 2013, p20
    \13\ Pepperdine Capital Access Index Survey Responses, Fourth 
Quarter 2013, p24
    \14\ Pepperdine Capital Access Index Survey Responses, Fourth 
Quarter 2013, p23 plus Special PCA Index Survey Responses for 
Businesses with Annual Revenues Under $500K, p16.
    \15\ Pepperdine Capital Access Index Survey Responses, Fourth 
Quarter 2013, p23 plus Special PCA Index Survey Responses for Business 
with Annual Revenues Under $500K, p16.

    Instead, micro and small businesses are turning to their 
personal assets to grow: our survey showed that 46% of micro 
business owners transferred personal assets to the business 
over the past three months, compared to 40% of small business 
owners and only 19.3% of medium business owners.\16\ During the 
recession, these assets were largely frozen, but with the 
housing market recovering and personal debt expanding, this is 
a singular bright spot to the small business capital dilemma.
---------------------------------------------------------------------------
    \16\ Pepperdine Capital Access Index Survey Responses, Fourth 
Quarter 2013, p27 plus Special PCA Index Survey Responses for 
Businesses with Annual Revenues Under $500K, p20.

    Ultimately, however, small businesses require business 
loans to succeed. Access to capital worsened significantly 
during the recession, but only for small businesses. Banks 
actually increased large business loans (defined by the FDIC as 
loans over $1 million) by 23% from 2007 (pre-recession) to 2012 
(post-recession). During the same time period, they decreased 
small business loans (defined by the FDIC as loans $1 million 
and under) by 14%.\17\
---------------------------------------------------------------------------
    \17\ Federal Deposit Insurance Corporation, Statistics on 
Depository Institutions, June 2007 through June 2012.

    External data show that banks and other traditional sources 
are trying to increase their small business lending, but even 
here, this lending is geared mostly to the larger ``small'' 
businesses. Many big banks now consider a small business as 
having up to $20 million in revenues, and evidence suggests 
that they are lending to those businesses with revenues closer 
to $20 million than $1 million or less. The average SBA backed 
7(a) loan in 2012 was $337,730. This is much more than the 
average microbusiness would require and likely greater than the 
needs of many smaller businesses. In fact, Forbes reported this 
year that one firm who surveyed their small businesses seeking 
loans found that 59% of them were looking for a loan amount of 
$50,000 or less.\18\
---------------------------------------------------------------------------
    \18\ Ty Kiisel, ``65 Percent Isn't Enough and Job Creation is 
Suffocating,'' Forbes, August 13, 2013.

    Even definitions of small business have changed. The 
problem of defining a small business is not a new one: the War 
Mobilization and Reconversion Act of 1944 defined a small 
business as either ``employing 250 wage earners or less'' or 
having ``sales volumes, quantities of materials consumed, 
capital investments, or any other criteria which are reasonably 
attributable to small plants rather than medium- or large-sized 
plants.'' \19\ The SBA's size standards were changed as 
recently as July 2013, when it increased the average annual 
revenue size standard from $7 million to $35.5 million for 25 
industries.\20\ This encourages banks and other lenders to lend 
to larger firms, despite the need from the smallest segment of 
our business economy.
---------------------------------------------------------------------------
    \19\ Robert Jay Dilger, ``Small Business Size Standards: A 
Historical Analysis of Contemporary Issues,'' Congressional Research 
Service, June 20, 2013.
    \20\ Jack Fitzpatrick, ``SBA Revises Small Business Size 
Standards,'' USA Today, June 21, 2013.

    Without capital, small business will not be in a position 
to increase employment. This explains why our data show that 
even though small businesses have increasing revenues and 
remain optimistic, they are still not adding jobs. Jobs require 
capital but it is the largest businesses that are having the 
easiest time financing growth, while the smallest businesses 
have much less access. As a result, we are investing in the 
least productive sector of our economy, which is yielding weak 
job growth. Improving small business access to capital would 
---------------------------------------------------------------------------
make the most positive economic impact.

    Solving the Problem: Reduce Lending Risks to and for SMBs

    The good news is that the problem is relatively clear: 
small business need access to capital in order to increase job 
growth. The solution, of course, is somewhat illusory. Previous 
attempts have focused on lowering interest rates but that is 
not the solution. Banks do not focus primarily on interest rate 
reductions in making lending decisions; they pass these costs 
on to businesses. Businesses in turn are not as focused as we 
might think on rates. We do not hear businesses complaining 
about high interest rates. In fact, many smaller businesses end 
up turning to alternative lending sources with very high rates 
and very high satisfaction. The solution, instead, lies with 
reducing risk, from both the lending side and the borrowing 
side.

    1. On the lending side, we've observed that banks are risk 
adverse. In general, the larger the business, the less 
likelihood of a complete loan default. Hence, banks tend to 
focus on lending to larger businesses. The government has tried 
to stem this trend with positive results by providing backstops 
through the Small Business Administration. The SBA currently 
guarantees 85% of the value of loans up to $150,000 and 75% of 
the value of loans of more than $150,000. While this has had a 
positive effect on small business lending, small business 
lending may benefit from having that distinction be focused, 
not on loan size, but on business size. For example, the SBA 
could guarantee 85% of the loan value for microbusinesses, 75% 
for small businesses, 50% for medium-sized businesses, and zero 
for larger companies. This would effectively tier the risk for 
banks and incentivize them to lend to the smallest and most 
productive businesses.

    2. On the borrowing side, many small business owners are 
hesitant to take out loans with personal guarantees. The SBA, 
traditional banks, and even many alternative lenders require 
personal guarantees. For example, the SBA requires all owners 
of 20 percent or more of the equity in a business to offer a 
personal guarantee, and may even require liens on personal 
assets.\21\ When banks require personal guarantees for a 
business loan, that loan is essentially the same as a personal 
loan. In effect, our economy has no concept of business loans 
for small businesses: we only offer personal loans. The most 
savvy of business owners know this and it is why our data shows 
that many owners avoid business loans in favor of easier and 
cheaper personal loans that carry the same risk. This policy is 
costing the economy growth and our nation jobs.
---------------------------------------------------------------------------
    \21\ 7(a) loan repayment terms from Sba.gov.

    We believe strongly that helping small businesses access 
capital is vital to our nation's recovery, and we have made 
this one of our missions at Dun & Bradstreet Credibility Corp. 
We launched our Access to Capital initiative in an effort to 
foster business lending and educate small business owners on 
the many types of financing that may be available to them. We 
have held four successful events in the past year, and have 
helped thousands of small business owners sit down for one-on-
one meetings with traditional and alternative lenders, 
resulting in tens of millions in loan originations. We are also 
a partner in the Clinton Global Initiative, where we have 
provided over $2.5 million in free products and services to 
small businesses across the country who are in need of our 
---------------------------------------------------------------------------
credit building solutions but cannot afford them.

    The best solutions occur when government and the private 
sector work together. The government has already done a great 
deal for its part. For small businesses, the government can 
even further and profoundly influence the growth of revenues 
and jobs by reducing risk on both sides of the equation.
[GRAPHIC] [TIFF OMITTED] 85743.001

                          Testimony of

                        Renaud Laplanche

                         Founder & CEO

                          Lending Club

                           before the

    Subcommittee on Economic Growth, Tax and Capital Access

                             of the

                  Committee on Small Business

             United States House of Representatives

                       5th December, 2013
    My name is Renaud Laplanche and I am the founder and CEO of 
Lending Club, a credit platform that employs over 300 people in 
San Francisco. My father was a small business owner; he owned a 
grocery store in a small town in France and I spent every day 
of my teenage years from 5 am until 8 am before class helping 
him in the store. After having started two companies in New 
York and San Francisco, residing in the US for the past 14 
years and starting a family here, I recently passed my 
citizenship test and will soon be a US citizen. Testifying 
before this Committee on the state of small business lending in 
America is a special moment for me.

    Small Businesses are not only a driving force in the US 
economy; they are an essential part of the American Dream. I 
believe it is our shared responsibility to ensure that these 
businesses and their owners have sufficient access to capital 
on fair terms.

    I have two points I hope to convey to you today. First, 
small businesses have insufficient access to credit, and that 
situation is worsening. Second, their credit performance as a 
group suggests that they should be getting more credit.

    1. Small businesses have insufficient access to capital and 
that situation is getting worse.

    A survey released by the Federal Reserve Bank of New York 
in August of this year was the latest to paint a grim picture 
of availability of credit to small businesses. Access to 
capital was reported as by far the biggest barrier to growth. 
Out of every 100 small businesses, 70 wanted financing. Of 
those 70, 29 were too discouraged to apply. Of the 41 that 
applied for credit, only 5 received the amount they wanted. 
Substantially all of these businesses (93%) were looking for 
$1M or less in capital. [NY Fed]

    This situation has not gotten better: while the overall 
volume of loans of more than $1M has risen slightly since 2008, 
loans of less than $1M have fallen by 19%. The number of small 
businesses with a business loan fell by 33% from 2008 to 2011. 
[NFIB]

    The problem is worse for the smallest businesses. While 
businesses with 20+ employees reported an increase in bank 
loans from 2009-2011, the majority of small businesses, which 
have fewer than 20 employees, reported a decline with the 
smallest businesses suffering the steepest decline. Businesses 
with 2-4 employees reported a 46% reduction in bank loans over 
the same period. [NFIB]

    While traditional sources of capital have pulled back, 
alternatives are on the rise. Alternative lenders such as 
online lenders and merchant cash advance providers are the 
fastest-growing segment of the SMB loan market--recording a 64% 
growth in originations in the last 4 years. [Paynet] Many of 
these alternative lenders, however, charge fees and rates that 
result in annual percentage rates generally in excess of 40% 
and, without full transparency, business owners don't always 
understand the true cost of the loan. This lack of 
understanding can be very harmful to a small business, which 
could find itself in a spiral of inescapable debt service.

    2. Small Business Loan Performance is Doing Just Fine.

    Charge-off rates on small business loans have been below 1% 
since March 2012, down from a peak of nearly 3% in 2009. [SBFE] 
In contrast, charge off rates on consumer credit cards peaked 
above 10% during the financial crisis.

    These figures show that absolute loan performance is not 
the main issue of declining SMB loan issuances; we believe a 
larger part of the issue lies in high underwriting costs. SMBs 
are a heterogeneous group and therefore the underwriting and 
processing of these loans is not as cost-efficient as 
underwriting consumers, a more homogenous population. Business 
loan underwriting requires an understanding of the business 
plan and financials and interviews with management that result 
in higher underwriting costs, which make smaller loans (under 
$1M and especially under $250k) less attractive to lenders. By 
contrast, larger loans--going mostly to larger businesses--are 
more attractive, as they allow underwriting costs to be 
amortized over a larger amount and longer loan term.

    We believe we have solutions to bring underwriting costs 
down and create the conditions for credit to become more 
available and more affordable to small businesses in America, 
and would be honored to answer the Subcommittee questions in 
that regard.
                              Testimony of


                               Fred Green


                           before the

        Subcommittee on Economic Growth, Tax and Capital Access


                             of the

                      Committee on Small Business


                 United States House of Representatives

                          Testimony of

                           Fred Green

                           before the

    Subcommittee on Economic Growth, Tax and Capital Access

                             of the

                  Committee on Small Business

                United States of Representatives

                        Dcember 5, 2013

    Chairman Rice, Ranking Member Chu, and members of the 
Committee, my name is Fred Green. I am President and Chief 
Executive Officer of the South Carolina Bankers Association. We 
are the professional trade association that has represented 
South Carolina's banks for over 110 years. Our members are both 
large and small and collectively have over 99% of the deposit 
market share in our state.

    I am pleased to share the banking industry's perspective on 
the state of the small business lending environment.

    It is well-documented how crucial small businesses are to 
the national economy. Studies produced by the Small Business 
Administration demonstrate that small businesses account for 
over half of all jobs in the U.S. and this share of total 
employment has been fairly stable over the past few decades. 
More importantly, small businesses account for as much as 65 
percent of net new jobs created over the past 15 years and most 
new job growth during economic recoveries occurs at new and 
small firms. Small firms and start-ups promote innovation 
because they are more flexible and often more daring than 
larger businesses.

    Banks are the primary lender to small businesses and their 
presence in local communities throughout our nation is critical 
to meeting the unique needs of new and developing companies. 
There is a symbiotic relationship between the health of a 
community and the health of the banks located there. It is why 
small business lending is an important part of every bank's 
strategy and why banks today provide more than 20 million small 
business loans.

    Loan demand has improved since the recession, however 
remains at relatively weak levels, held back by tremendous 
uncertainty about the future. Concerns over changes to taxes, 
employment costs and regulation make small business owners less 
interested in expanding and incurring new debt. Businesses 
simply are not willing to take on additional debt with so much 
uncertainty about the economic future they face.

    Despite the low loan demand, banks continue to meet the 
needs of their customers. In every community, banks are 
actively lending and continually looking for lending 
opportunities. After declines in loan portfolios since the pre-
recession peak, recent FDIC call report data shows that 
outstanding loans have been growing over the last 12 months. 
The presence of banks in communities throughout our nation is 
critical to meeting the unique needs of small businesses.

    Historically, small business loans have been more risky 
than other loan types. Small business loan portfolios' credit 
metrics are improving but are still below pre-recession levels. 
Underwriting standards have forced banks to secure more of 
these loans with collateral. The smaller loans, generally 
$250,000 and less, are underwritten primarily on the owner's 
financial strength and personal assets. Since real estate is 
the primary personal asset for many small business owners, and 
real estate has decreased in value, this presents another 
challenge for banks.

    Banks also face another challenge in providing loans to 
meet their customer's needs with the most recent wave of 
regulations. The cumulative impact of hundreds of new or 
revised regulations may be a weight too great for many small 
banks to bear. Congress must be vigilant in its oversight of 
the efforts to implement the Dodd-Frank Act to ensure that 
rules are adopted only if they result in a benefit that clearly 
outweighs the burden. Some rules under Dodd-Frank, if done 
improperly, will literally drive banks out of lines of 
business.

    This last point is very important. It is not that these 
regulations will just increase compliance costs for banks, but 
banks are now, in their strategic planning, being forced to 
consider the elimination of certain products to which customers 
have grown accustomed. In South Carolina we recognized this 
growing concern and held a special conference for top bank 
executives recently to address significantly stricter mortgage 
regulations and capital standards banks will find themselves 
facing beginning next year. Some community banks have already 
told us they will most likely have to stop offering residential 
mortgage products because of these new lending regulations. And 
as we all know, fewer participants in the market means fewer 
options for consumers. For many, these community banks are the 
only option. In fact, community banks are the only physical 
banking presence in one fifth of the counties in the U.S. The 
calculus is fairly simple: More regulation means more resources 
devoted to regulatory compliance, and the more resources 
devoted to regulatory compliance, the fewer resources are 
dedicated to doing what banks do best--meeting the credit needs 
of local communities. Every dollar spent on regulatory 
compliance means as many as ten fewer dollars available for 
creditworthy borrowers. Less credit in turn means businesses 
can't grow and create new jobs. As a result, local economies 
suffer and the national economy suffers along with them.

    In my testimony today, I'd like to make three key points:

    <bullet> Demand for Business Loans Remains Weak Due to 
Uncertainty.

    <bullet> Banks are Making New Loans, Meeting Demand.

    <bullet> New Regulations Threaten Banks' Ability to Meet 
Customer Demand.

    I will discuss each of these in detail in the remainder of 
my testimony.

    Demand for Business Loans Remains Weak Due to Uncertainty

    Loan demand has steadily improved since the recession, 
however remains at relatively weak levels. Although the economy 
continues its slow recovery, there remains tremendous 
uncertainty about the future. This uncertainty, particularly 
relating to potential changes to taxes and regulation makes 
borrowers less interested in adding new debt.

    Small business sentiment has yet to recover from the 
recession. The National Federation of Independent Business's 
(NFIB) Small Business Optimism Index remains at depressed 
levels, and has yet to surpass pre-recessionary lows going as 
far back as 1980. Moreover, optimism has not seen any 
significant improvement in the past two years.

    As a result, businesses are not looking to expand. In the 
NFIB's October survey, just 6 percent of small businesses see 
now as a good time to expand. In fact, 59 percent of the 
respondents cited the economic conditions and political climate 
alone as the reason not to expand. If businesses are not 
expanding, they are not taking out loans to fund expansion.
[GRAPHIC] [TIFF OMITTED] 85743.002

    In South Carolina, our banks are reporting the same--that 
there is some demand, but economic uncertainty and the 
political climate are holding businesses back from making 
capital investments to grow their businesses.

    Most bankers state that demand is low particularly from 
companies with stronger credit profiles. Financially strong 
companies are holding back because of the uncertainty generated 
by the debate on the budget and the debt ceiling; and over 
healthcare cost concerns.

    Higher employment costs such as healthcare, taxation and 
labor are bigger issues than most realize, especially for the 
small-business owner. Our bankers repeatedly report speaking to 
companies that are cutting employees to get below the 50-worker 
threshold. For these businesses, that means no expansion and 
therefore a limited need for bank funding for expansion. One 
banker reported a common example. This banker had banked the 
local owners of seven fast-food restaurants. The owners 
recently refinanced all term debt and extended amortization to 
provide better debt coverage in preparation for the impact of 
increased healthcare costs. They currently have approximately 
150 full time employees and 50 part time employees. They plan 
to cut full time employment by at least 50 percent and offset 
that by increasing their part time staff. In addition, they 
have put all expansion plans on hold. Another business owner is 
outsourcing instead of expanding and hiring new employees. He 
cites concerns over the rising cost of healthcare as one thing 
that keeps him from growing his employment base.

    Due to this uncertainty and apprehension about the future, 
small business owners' loan levels have decreased. This leaves 
bankers to aggressively seek what little business is available, 
often taking business from one another; rather than seeing an 
expansion of the business market to pre-recession levels due to 
increased borrowing. Even though the resulting pricing and 
terms from this competition are very favorable to borrowers, 
lending levels remain low due to the lack of confidence on the 
part of small business owners, not banks' unwillingness to 
lend.

    Business thrives when there is a level of stability in the 
economy. The unknowns associated with providing health care to 
employees is just one of many concerns in what business owners 
see as a confusing and convoluted environment.

    Businesses simply are not willing to take on additional 
debt with so much uncertainty about the economic future they 
face. In fact, utilization of existing line commitments remains 
low at around 50 percent. Said differently, business owners are 
using only 50 percent of the dollar loan commitments already in 
place.

    Banks are Making New Loans, Meeting Demand.

    In every community, banks are actively lending and 
continually looking for lending opportunities. In spite of the 
slowly recovering pace of the economy, recent FDIC call report 
data shows that outstanding loans have been growing over the 
last 12 months and that after several years of contraction, the 
overall portfolio of small business loans has stabilized. The 
presence of banks in communities throughout our nation is 
critical to meeting the unique needs of small businesses.
[GRAPHIC] [TIFF OMITTED] 85743.003

    AIn fact, banks are meeting the majority of loan demand of 
small businesses. In the NFIB's October 2013 Small Business 
Optimism Index, financing and interest rates were the least 
cited concern facing small businesses. In fact, just two 
percent of respondents identified this as their chief concern, 
a survey low. On the other hand a combined 41 percent of 
respondents cited government requirements or taxes as their 
greatest concern.

    Banks still continue to make loans to creditworthy 
borrowers, constantly assessing whether some businesses can 
reasonably take on more debt in this economy. In 2012 alone, 
banks made $1.8 trillion in new loans and business loan volumes 
have grown by 10 percent in the past year alone.
[GRAPHIC] [TIFF OMITTED] 85743.003

    BThe pace of business lending is affected by many things, 
most importantly being the demand from borrowers. The state of 
the local economy--including business confidence, business 
failures, and unemployment--and regulatory pressures to be 
conservative plays important roles too. The rise in new credit 
means that businesses are borrowing more from banks and using 
that money to grow and improve the economy.

    New Regulations Threaten Banks' Ability to Meet Customer 
Demand.

    Banks are currently contending with a wave of new 
regulations. During the last decade, the regulatory burden for 
community banks has multiplied tenfold, with more than 50 new 
rules in the two years before Dodd-Frank. And with Dodd-Frank 
alone, there are more than 5,500 pages of proposed regulations 
and 6,700 pages of final regulations (as of November 19, 2013). 
What is frightening to consider is that we are not even half 
way through Dodd-Frank's 398 rules that must be promulgated 
under the new law.

    In many cases, the cumulative impact of the last few years 
of new regulation threatens to undermine the community bank 
model. Banks certainly appreciate the importance of regulations 
that are designed to protect the safety and soundness of our 
institutions and the interests of our customers. We recognize 
that there will always be regulations that control our 
business. But the reaction to the financial crisis has layered 
regulation upon regulation, doing little to improve safety and 
soundness and, instead, increasing our operating costs and 
handicapping our ability to serve our communities.

    Community banks pride themselves on being agile and quick 
to adapt to changing environments. During the recession, banks 
tightened lending standards. Even though underwriting has 
loosened some, it is still tighter than before. Yet what will 
discourage loosening underwriting standards even further are 
the regulatory pressures on small community banks, the banks 
that make the majority of the small business loans. New laws or 
regulations might be manageable in isolation, but wave after 
wave, one on top of another, will undoubtedly overwhelm many 
community banks. Given that the cost of compliance has a 
disproportionate impact on small banks as opposed to large 
banks, it is reasonable to expect this gap to widen even more 
as Dodd-Frank is fully implemented.

    The cumulative impact of hundreds of new or revised 
regulations may be a weight too great for many small banks to 
bear. Congress must be vigilant in its oversight of the efforts 
to implement the Dodd-Frank Act to ensure that rules are 
adopted only if they result in a benefit that clearly outweighs 
the burden. As mentioned earlier, some rules under Dodd-Frank, 
if done improperly, will cause many banks to eliminate or 
drastically limit products and services many businesses have 
used for years. New rules on mortgage lending, for example, are 
particularly problematic.

    In dramatic illustration of this point, a 2011 ABA survey 
of bank compliance officers found that compliance burdens have 
caused almost 45 percent of the banks to stop offering some 
loan or deposit products. In addition, almost 43 percent of the 
banks decided to not launch a new product, delivery channel or 
enter a geographic market because of the expected compliance 
cost or risk.

    The bottom line is this--additional regulations mean more 
resources devoted to compliance, and dollars directed toward 
compliance are dollars that can't be directed toward meeting 
the credit needs of local communities. Banks understand 
regulation is necessary, but they also understand that 
burdensome regulation ultimately means they have fewer dollars 
to lend, which means less opportunity for businesses to grow 
and create new jobs. As a result local economies suffer and the 
national economy suffers along with them.

    Conclusion

    Banks in South Carolina and across the nation are eager to 
serve the financing needs of small businesses. They understand 
they play a critical role in their local economies and no bank 
has or wants to stop pursuing small-business lending. Yet, 
small businesses remain very hesitant on the whole to embrace 
expansion due to economic uncertainty, concerns over healthcare 
and the political climate. Businesses that are ready to expand, 
hire and invest find themselves increasingly apprehensive as a 
result of the external turmoil and, as a result, have held off 
significantly from enacting growth plans.

    This does not mean that banks are not making loans. Our 
economy is growing and banks are addressing financing needs. 
But these loans are being made to creditworthy borrowers with 
vanilla financials; businesses with financials that vary from 
norm, sometimes even in small measures, often finding 
themselves unable to secure financing.

    Finally, regulatory pressures on banks have slowed banks' 
ability to provide their communities the economic financing 
they need. Regulations restrict what loans can be made and the 
amount of regulations greatly increase compliance costs, thus 
reducing the ability to lend. The bottom line is that while 
banks may be eager to lend, and business may be eager to grow, 
the environment that exists at present is hindering efforts by 
both to make transactions a reality. As such, it's not only 
banks and small businesses that are hurt, but communities as a 
whole.

    Healthy, properly financed small businesses are absolutely 
critical to our communities' economies. Banks understand their 
role in this and continue to make every good loan they can, 
despite an increasingly difficult lending environment.

    Thank you once again for the opportunity to testify.
    [GRAPHIC] [TIFF OMITTED] 85743.004
    
                          Introduction

    Good morning, Chairman Rice, Ranking Member Chu and Members 
of the Subcommittee. My name is John Farmakides, and I am 
testifying on behalf of the National Association of Federal 
Credit Unions (NAFCU). Thank you for holding this important 
hearing today. I appreciate the opportunity to share our views 
on small business lending from a lender's perspective.

    Currently, I serve as the President and CEO of Lafayette 
Federal Credit Union headquartered in Kensington, Maryland, a 
position I have held since 2007. Lafayette has a rich history 
of serving the greater Washington, D.C. area and was 
established in 1935 offering small personal loans to members. 
Today Lafayette has approximately 14,000 members, over 65 
employees and more than $366 million in assets. We provide a 
full range of financial services including member business 
loans through several branches in Maryland, Virginia, and the 
District of Columbia. I have been an active member of the 
Lafayette community for over 20 years, serving on the 
supervisory committee as chairman and as treasurer of the board 
before being named President and CEO in 2007. I also have 
experience in investment banking and commercial real estate.

    In addition to my responsibilities at Lafayette, I also 
currently sit on the Regulatory Committee at the National 
Association of Federal Credit Unions (NAFCU). As you may know, 
NAFCU is the only national organization that exclusively 
represents the interests of the nation's federally chartered 
credit unions. NAFCU member credit unions collectively account 
for approximately 68 percent of the assets of federally 
chartered credit unions. NAFCU and the entire credit union 
community appreciate the opportunity to participate in this 
important and timely discussion.

                  Background on Credit Unions

    Historically, credit unions have served a unique function 
in the delivery of necessary financial services to Americans. 
Established by an act of Congress in 1934, the federal credit 
union system was created, and has been recognized, as a way to 
promote thrift and to make financial services available to all 
Americans, many of whom would otherwise have limited access to 
financial services. Congress established credit unions as an 
alternative to banks and to meet a precise public need--a niche 
credit unions fill today for nearly 97 million Americans. Every 
credit union is a cooperative institution organized ``for the 
purpose of promoting thrift among its members and creating a 
source of credit for provident or productive purposes.'' (12 
Sec. USC 1752(1)). While over 75 years have passed since the 
Federal Credit Union Act (FCUA) was signed into law, two 
fundamental principles regarding the operation of credit unions 
remain every bit as important today as in 1934:

          <bullet> credit unions remain totally committed to 
        providing their members with efficient, low-cost, 
        personal financial service; and,

          <bullet> credit unions continue to emphasize 
        traditional cooperative values such as democracy and 
        volunteerism.

    The nation's approximately 7,000 federally insured credit 
unions serve a different purpose and have a fundamentally 
different structure than banks. Credit unions exist solely for 
the purpose of providing financial services to their members, 
while banks aim to make a profit for a limited number of 
shareholders. As owners of cooperative financial institutions 
united by a common bond, all credit unions have an equal say in 
the operation of their credit union--``one member, one vote''--
regardless of the dollar amount they have on account. These 
singular rights extend all the way from making basic operating 
decisions to electing the board of directors--something unheard 
of among for-profit, stock-owned banks. Unlike their 
counterparts at banks and thrifts, federal credit union 
directors generally serve without remuneration--a fact 
epitomizing the true ``volunteer spirit'' permeating the credit 
union community.

    Credit unions continue to play a very important role in the 
lives of millions of Americans from all walks of life. As 
consolidation of the commercial banking sector has progressed, 
with the resulting depersonalization in the delivery of 
financial services by banks, the emphasis in consumers' minds 
has begun to shift not only to services provided, but also--
more importantly--to quality and cost of those services. Credit 
unions are second-to-none in providing their members with 
quality personal financial services at the lowest possible 
cost.

          Impediments to Credit Union Business Lending

    When Congress passed the Credit Union Membership Access Act 
(CUMAA) (P.L. 105-219) in 1998, it put in place restrictions on 
the ability of credit unions to offer member business loans 
(MBL). Credit unions had existed for nearly 90 years without 
these restrictions. Congress codified the definition of an MBL 
and limited a credit union's member business lending to the 
lesser of either 1.75 times the net worth of a well-capitalized 
credit union or 12.25 percent of total assets.

    CUMAA also established, by definition, that business loans 
above $50,000 count toward the cap. This number was not indexed 
and has not been adjusted for inflation in the 15 years since 
enactment, eroding the de minimis level. Where many vehicle 
loans or small lines of credit may have been initially exempt 
from the cap in 1998, many of these types of loans that meet 
the needs of small business today are now impacted by the cap 
due to this erosion. To put this in perspective relative to 
inflation, what cost $50,000 in 1998 costs $71,639 today, using 
consumer price index data. That is a change that is completely 
ignored by current law and greatly hamstrings a credit union's 
ability to meet its members' needs.

    The mere existence of an member business lending cap acts 
as a deterrent for credit unions to start an MBL portfolio 
knowing that as their program thrives they will face this 
arbitrary threshold and may have to turn members away. 
Furthermore, it should be noted that those credit unions that 
do have an MBL program are disincentivized from offering 
working capital lines of credit given that, regardless of 
whether or not the line of credit is actually drawn, it still 
counts against the cap. As members of the subcommittee are 
aware, working capital lines of credit are critical to small 
companies as a way to meet day-to-day cash shortfalls and 
manage the needs of a growing business.

    It should be noted that the government guaranteed portions 
of Small Business Administration (SBA) loans do not count 
toward the member business lending cap, but the non-guaranteed 
portions do. This could ultimately lead to a situation where a 
credit union may be an excellent, or even preferred, SBA lender 
and ultimately have to scale back participation in SBA programs 
as they approach the arbitrary cap. This would likely hit SBA 
Express or Patriot Express loans first, as those have lower 
guarantees and thus may have a bigger impact on money available 
below the cap. As you know, Patriot Express loans help give our 
nation's veterans more opportunities after they return from 
serving our country. The member business lending cap can deter 
the availability of those opportunities.

    Also, pursuant to section 203 of CUMAA, Congress mandated 
that the Treasury Department study the issue of credit unions 
and member business lending. In January 2001, the Treasury 
Department released the study, ``Credit Union Member Business 
Lending'' and found the following: ``...credit union's business 
lending currently has no effect on the viability and 
profitability of other insured depository institutions.'' (p. 
41). Additionally, when examining the issue of whether 
modifying the arbitrary cap would help increase loans to 
businesses, the study found that ``...relaxation of membership 
restrictions in the Act should serve to further increase member 
business lending...'' (p. 41).

    The 2001 Treasury study found that credit unions do not 
pose a threat to the viability and profitability of banks, but 
that in certain cases, they could be an important source of 
competition for banks. It is important to note that credit 
unions have a nominal market share of the total commercial 
lending universe (approximately 6% of all small business loans 
from insured depository institutions), and are not a threat to 
other lenders (who control nearly 94% of all small business 
loans from insured depository institutions) in this 
environment.

    A 2011 study commissioned by the SBA's Office of Advocacy 
affirms these findings. (James A. Wilcox, The Increasing 
Importance of Credit Unions in Small Business Lending, Small 
Business Research Summary, SBA Office of Advocacy, No. 387 
(Sept. 2011)). The SBA study also indicates, importantly, that 
credit union business lending has increased in terms of the 
percentage of their assets both before and during the 2007-2010 
financial crisis while banks' has decreased. This demonstrates 
not only the need for lifting the cap in order to meet credit 
union members' demand, but also that credit unions continue to 
meet the capital needs of their business members even during 
the most difficult of times. One of the findings of the study 
was that bank business lending was largely unaffected by 
changes in credit unions' business lending. Additional analysis 
is the study also found that credit unions' business lending 
can actually help offset declines in bank business lending 
during a recession.

    Bipartisan legislation to address this issue, in the form 
of H.R. 688, the Credit Union Small Business Jobs Creation Act, 
is pending before the Financial Services Committee. Introduced 
by Reps. Ed Royce (R-CA) and Carolyn McCarthy (D-NY) this 
legislation would raise the current 12.25% limit to 27.5% for 
credit unions that meet certain criteria. One alternative to 
the approach in H.R. 688 would be to raise the outdated 
``definition'' of an MBL from last century's $50,000 to a new 
21st century standard of $250,000, with an indexing of 
inflation to prevent future erosion. Furthermore, MBLs made to 
non-profit religious organizations, made for certain 
residential mortgages (such as non-owner occupied 1-4 family 
residential mortgages), made to business in ``underserved 
areas'' or made to small businesses with fewer than 20 
employees should be given special exemptions from the cap.

    The ever-growing regulatory burden being placed on credit 
unions also serves to hamper the ability of credit unions to 
make business loans, as capital is diverted from lending to 
compliance costs. In early February of this year, NAFCU was the 
first credit union trade association to formally call on the 
new Congress to adopt a comprehensive set of ideas generated by 
credit unions that would lead to meaningful and lasting 
regulatory relief for our industry (A copy of the letter is 
attached to my testimony). Based on feedback from our 
membership and the strong expectation for future growth, 
regulatory relief on the member business lending front is a key 
component of NAFCU's five-point plan. Another important aspect 
of this proposal is capital reforms for credit unions, such as 
establishing a risk-based capital system and allowing credit 
unions to seek access to supplemental capital. Providing 
regulatory relief on these fronts will help make sure credit 
unions continue to have the capital available to lend our 
nation's small businesses.

 The Member Business Lending Environment Post Financial Crisis

    A November 2013, survey of NAFCU members found that member 
business lending is expected to grow over the next twelve 
months. On a scale that goes from -100 to +100 (where zero 
indicates flat growth), the August-October median growth 
expectation for credit unions regardless of geographic location 
was 35.6. Furthermore, asset quality continues to improve for 
member business loans at credit unions, with charge-offs down 
to only 0.38%.

    As illustrated in the graph below, the percentage of credit 
unions with member business lending programs has been rising 
steadily since the financial crisis.
[GRAPHIC] [TIFF OMITTED] 85743.005

    While other lenders pulled back on business lending during 
the economic downturn, credit unions continued to lend to their 
small business members. Furthermore, as those small business 
members lost lines of credit from other lenders, they turned to 
credit unions to help meet their needs, leading to an increased 
demand for credit union business loans.

   Member Business Lending at Lafayette Federal Credit Union

    Lafayette has seen a need arise from our small business 
members to get lines of credit that they have lost from other 
lenders. As a result, we have expanded our focus into this area 
in 2013. For example, we gave a $125,000 line of credit to a 
local bike rental and touring company to help with their cash 
flow due to the cyclical nature of their business. This loan 
helps them maintain their 8-10 full-time employees in the off-
season (which then grows to 50-60 in season).

    While our credit union proudly meets our local communities' 
lending needs, the arbitrary member business lending cap is now 
having a direct negative impact on how well we can serve our 
members. Many small businesses come to us looking for large 
lines of credit to help them meet cyclical challenges. However, 
any line of credit above $50,000 counts toward our member 
business lending cap, even if the funds are not extended. This 
fact hampers our ability to meet the needs of many of our small 
business members.

    So far in 2013, we have done ten commercial and industrial 
member business loans averaging out at about $61,000 each, 
evidence that most are considered small but are still ``large'' 
enough to count against the arbitrary cap. Many of our loans in 
this area tend to be lines of credit advances aimed at 
financing for cash flow purposes or startup costs. We have also 
been able to assist very small traditional companies like a 
specialty bakery with a single employee-owner and a trucking 
delivery service. At the same time, we have made loans to 
several consulting firms related to government contracting as 
well as an innovative solar energy appliance company.

    It is worth noting that Lafayette takes our MBL program 
very seriously and we have recruited the appropriate personnel 
with the appropriate experience to ensure it is sound and 
successful. While others in the financial services industry may 
claim credit unions aren't sophisticated enough or able to 
attract the correct personnel to make member business loans, 
this is simply a misnomer.

         SBA Lending at Lafayette Federal Credit Union

    Small businesses are the backbone of our economy and an 
important source of jobs for Americans. The Small Business 
Administration's loan programs serve as an important resource 
that helps credit unions provide small businesses with the 
vital capital necessary for growth and job creation. However, 
utilizing any SBA loan guaranty program requires meeting 
stringent government regulations. While we are an approved SBA 
7(a) lender, we currently have just one SBA 504 loan 
outstanding, and one USDA Business & Industry loan outstanding.

    Determining overall applicant eligibility to participate in 
an SBA program is nearly as important as determining the 
applicant's creditworthiness. Failing to meet certain 
eligibility criteria may preclude the applicant from 
participating in an SBA guaranteed loan program. Eligibility 
criteria includes among other things: size restrictions, type 
of business, use of proceeds, credit standards, and meeting a 
`credit-elsewhere' test.

    If Congress and the SBA were to make it easier for credit 
unions to participate in these programs, small businesses 
throughout the nation will have greater access to capital at a 
time when it is needed most. NAFCU would support SBA loans 
being permanently exempted from counting against a credit 
union's MBL cap in full. These suggested changes, which allow 
credit unions to do more to help our nation's small businesses, 
are an important step to help our nation recover from the 
current economic downturn.

                           Conclusion

    Small businesses are the driving force of our economy and 
they key to its success. The ability for them to borrow and 
have improved access to capital is vital for job creation. 
Credit unions play an important role in helping our nation's 
small businesses get the access to funds that they need. We 
want to do more, however, we are hamstrung by an outdated 
artificial member business lending cap that ultimately hurts 
small businesses. We urge the subcommittee to support 
legislation to make it easier for credit unions to meet the 
business lending needs of their members and to expand 
participation in SBA programs.

    We thank you for your time and the opportunity to testify 
before you here today on this important issue to credit unions 
and our nation's economy. I would welcome any questions that 
you may have.

    Attachment: NAFCU letter to Chairman Johnson, Chairman 
Hensarling, Ranking Member Crapo and Ranking Member Waters 
calling on Congress to provide credit union regulatory relief; 
February 12, 2013.
[GRAPHIC] [TIFF OMITTED] 85743.006

[GRAPHIC] [TIFF OMITTED] 85743.007

[GRAPHIC] [TIFF OMITTED] 85743.008

[GRAPHIC] [TIFF OMITTED] 85743.009

[GRAPHIC] [TIFF OMITTED] 85743.010

[GRAPHIC] [TIFF OMITTED] 85743.011

[GRAPHIC] [TIFF OMITTED] 85743.012

[GRAPHIC] [TIFF OMITTED] 85743.013

[GRAPHIC] [TIFF OMITTED] 85743.014

[GRAPHIC] [TIFF OMITTED] 85743.015

[GRAPHIC] [TIFF OMITTED] 85743.016

[GRAPHIC] [TIFF OMITTED] 85743.017

                                 <all>

</pre></body></html>
